<html>
<title> - FEMA'S URBAN SEARCH AND RESCUE PROGRAM IN HAITI: HOW TO APPLY LESSONS LEARNED AT HOME</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                        FEMA'S URBAN SEARCH AND
                        RESCUE PROGRAM IN HAITI:
                          HOW TO APPLY LESSONS
                            LEARNED AT HOME

=======================================================================

                                (111-85)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            February 3, 2010

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
55-757                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
DONNA F. EDWARDS, Maryland           VACANCY
THOMAS S. P. PERRIELLO, Virginia, 
Vice Chair
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bettenhausen, Honorable Matthew, Secretary of the California 
  Emergency Management Agency, National Emergency Management 
  Association....................................................     5
Carwile, William, Assistant Administrator for Response and 
  Recovery, Federal Emergency Management Agency..................     5
Cover, Steven, Fire Chief, Virginia Beach Fire Department, 
  Sponsoring Agency Chief, Virginia Task Force 2.................    24
Downey, Dave, Division Chief, Training and Safety Division, 
  Miami-Dade Fire Rescue Department, Task Force Leader, Florida 
  Task Force 1...................................................    24
Endrikat, Fred, Special Operations Chief, City of Philadelphia 
  Fire Department, Task Force Leader, Pennsylvania Task Force 1..    24
Kramer, Mark, Assistant Chief/Operations, Orange County Fire 
  Authority, Sponsoring Agency Chief, California Task Force 5....    24

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    50
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    51
Oberstar, Hon. James L., of Minnesota............................    53

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bettenhausen, Honorable Matthew..................................    57
Carwile, William.................................................    68
Cover, Steven....................................................    79
Downey, Dave.....................................................    87
Endrikat, Fred...................................................    99
Kramer, Mark.....................................................   119

                       SUBMISSIONS FOR THE RECORD

Bettenhausen, Honorable Matthew, Secretary of the California 
  Emergency Management Agency, National Emergency Management 
  Association, responses to questions from the Subcommittee......    66
Carwile, William, Assistant Administrator for Response and 
  Recovery, Federal Emergency Management Agency, responses to 
  questions from Rep. Norton, a Representative in Congress from 
  the District of Columbia.......................................    74
Cover, Steven, Fire Chief, Virginia Beach Fire Department, 
  Sponsoring Agency Chief, Virginia Task Force 2, responses to 
  questions from Rep. Norton, a Representative in Congress from 
  the District of Columbia.......................................    84
Downey, Dave, Division Chief, Training and Safety Division, 
  Miami-Dade Fire Rescue Department, Task Force Leader, Florida 
  Task Force 1, responses to questions from the Subcommittee.....    97
Edwards, Hon. Donna F., a Representative from the State of 
  Maryland, certification form...................................    20
Endrikat, Fred, Special Operations Chief, City of Philadelphia 
  Fire Department, Task Force Leader, Pennsylvania Task Force 1, 
  responses to questions from the Subcommittee...................   115
Kramer, Mark, Assistant Chief/Operations, Orange County Fire 
  Authority, Sponsoring Agency Chief, California Task Force 5, 
  responses to questions from Rep. Norton, a Representative in 
  Congress from the District of Columbia.........................   126

[GRAPHIC] [TIFF OMITTED] T4757.001

[GRAPHIC] [TIFF OMITTED] T4757.002

[GRAPHIC] [TIFF OMITTED] T4757.003

[GRAPHIC] [TIFF OMITTED] T4757.004

[GRAPHIC] [TIFF OMITTED] T4757.005

[GRAPHIC] [TIFF OMITTED] T4757.006

[GRAPHIC] [TIFF OMITTED] T4757.007



  HEARING ON FEMA'S URBAN SEARCH AND RESCUE PROGRAM IN HAITI: HOW TO 
                     APPLY LESSONS LEARNED AT HOME

                              ----------                              


                      Wednesday, February 3, 2010

                   House of Representatives
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. Good afternoon and welcome to today's hearing 
on the Federal Emergency Management Agency's National Urban 
Search and Rescue program, its role in Haiti, and the lessons 
our Subcommittee can learn from the humanitarian work of our 
U.S. teams and their experiences that might be applied during 
disasters in the United States. The National Urban Search and 
Rescue System, which, for short, is sometimes called US&R, is 
an administrative creation of FEMA, using the authority of the 
Stafford Act, and is within the jurisdiction of this 
Subcommittee.
    Today, we will hear from FEMA, from officials from 
California, a State that faces risks for virtually every type 
of disaster, and from four participants in the National Urban 
Search and Rescue program, including two heroes who have just 
returned from their deployment in Haiti.
    FEMA'S US&R program was developed after the devastating 
results of the Mexico City Earthquake in 1985 and the Loma 
Prieta Earthquake, which struck California in 1989. It was 
clear, after many people were trapped in the aftermath of the 
Mexico City earthquake, that a national capacity was needed for 
large-scale rescues from structural collapses in the U.S. 
Today, we again look to a tragic earthquake in a neighboring 
country for lessons learned.
    FEMA, which established the Urban Search and Rescue program 
in 1989 to create a nationwide capacity with 25 task forces, 
has now grown to 28 task forces in 19 States. We are fortunate 
that two of them are here in the National Capital Region: 
Maryland Task Force-1, based in Montgomery County, and Virginia 
Task Force-1, based in Fairfax County. Every deployment of 
these task forces anywhere in the Country or abroad must be 
understood as preparation for disasters here as well.
    US&R is a classic ``all hazards'' response program, not an 
earthquake response program. Urban Search and Rescue task 
forces respond to the consequence rather than to the cause of 
disasters. It does not matter what causes a structure to 
collapse, whether it is an earthquake, a hurricane, gas 
explosion, terrorist attack, bomb, or structural failure. The 
essential elements of their operations remain the same. The 
expertise the Urban Search and Rescue teams build reinforces 
the breadth of their possible applications.
    The rescue and response network within the FEMA system is 
built on an efficient and economical Federal-State quid pro quo 
model. FEMA provides training and resources to the task forces, 
which in return are available to the Federal Government as 
needed. While we see Urban Search and Rescue task forces on 
television when they are deployed to large disasters, they are 
more often being using their expertise in their own States and 
communities, as well as in neighboring States, for events that 
do not reach the level of a major disaster or emergency 
declared under the Stafford Act.
    Among the incidents for which FEMA has deployed the Urban 
Search and Rescue teams: the Murrah Federal Building bombing in 
Oklahoma City, in 1995; the Vidal Building explosion in San 
Juan, Puerto Rico, in 1996; the DeBruce Grain elevator 
explosion in Wichita, Kansas, in 1998; the attacks on the World 
Trade Center and the Pentagon, in 2001; the four Florida 
hurricanes of 2004; and, of course, Hurricane Katrina in the 
Gulf Coast in 2005; and Hurricane Ike in Texas in 2008.
    Two of the task forces also have agreements with the United 
States Agency for International Development, or USAID, for 
overseas deployments: the task forces based in Fairfax County, 
Virginia, and in Los Angeles, California. When task forces 
deploy overseas, they are using training and equipment provided 
by FEMA. USAID then reimburses these task forces for the 
replacement and refurbishment of the equipment that is used.
    However, the earthquake in Haiti marks the first time that 
task forces were sent that did not have an agreement already 
with USAID, and that, of course, reflects the need in Haiti, a 
particularly tragic and extensive earthquake. Four task forces, 
including two that are represented here today, were called upon 
by FEMA on loan to USAID for this tragedy, through an agreement 
between FEMA and USAID. In today's hearing we will discuss 
whether this is a model that should be used again in the 
future.
    I am pleased to be a cosponsor of H.R. 3377, the ``Disaster 
Response, Recovery, and Mitigation Enhancement Act of 2009,'' 
along with Chairman Oberstar and Ranking Members Mica and Diaz-
Balart.
    Section 105 of that bill reauthorizes the program and 
provides the US&R system, or the Urban Search and Rescue task 
forces we are discussing here today. It reauthorizes them as a 
matter of law, with many of the protections they will need, 
including a clear and specific authorization, as well as 
workers compensation and tort liability protection. H.R. 3377 
was reported favorably to the House by the Full Committee in 
November, but we will revise or strengthen this legislation 
before the House takes it up if today's hearing makes that 
necessary.
    I am also pleased today to have introduced a resolution 
expressing gratitude and appreciation to the personnel of 
FEMA'S Urban Search and Rescue system for their unyielding 
determination and work as first responders to victims of 
disasters, including the recent earthquake in Haiti. This 
resolution is cosponsored by Chairman Oberstar, Ranking Members 
Balart and Mica, and a number of other members of Congress 
already. We will get more. I think we need 50 cosponsors--that 
will be very easy to get--in order to bring this resolution to 
Committee and to the floor.
    I look forward to hearing the testimony of today's 
witnesses and thank them in advance for being available to us, 
as this tragedy is ongoing, so that we can learn lessons now; 
not a year from now, not five years from now, but right now, 
because we do not know when a tragedy of this kind--not an 
earthquake, but a tragedy involving rescue and recovery--will 
occur in our Country, given the diversity of our population and 
of our terrain.
    Ms. Norton. I am very pleased now to yield to the Ranking 
Member and to congratulate him. I believe that he has a team 
from Florida in Haiti now and that he was instrumental in 
bringing to the attention of the Administration that this team 
could be useful. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman. 
First, let me thank you for this very important hearing and 
very timely hearing. I also want to thank, obviously, the 
witnesses for taking of their valuable time to share some 
insight with us.
    And if I may be a little parochial, Madam Chairwoman, you 
mentioned Miami-Dade County. I would especially like to welcome 
David Downey, Division Chief of the Miami-Dade County Fire 
Rescue Department from obviously the area that I am blessed to 
represent. Thank you for being here.
    As you just said, Madam Chairwoman, the Miami-Dade Urban 
Search and Rescue team has a long successful track record of 
doing these sorts of operations, and I appreciate their work 
and the work of the other teams that are also represented here 
today.
    You mentioned, Madam Chairwoman, that we made some phone 
calls, but I think we also have to thank the Administration, 
because we know that bureaucracies are very difficult to break 
through, and we called the Administration and within the hours 
the Administration, not being too concerned about fiefdoms or 
kingdoms or walls, they broke down those barriers in order to 
get the job done; and I think it is important that we recognize 
that.
    The devastation and the destruction that occurred on 
January 12th was really without parallel, and it is difficult 
to comprehend the level of devastation, of destruction, no 
matter how much you see it on television, unless you have been 
there, unless you have seen it, which is why it is so important 
to hear from those first responders that were there, and some 
of them are here today.
    I know the people of Haiti are very grateful for the 
selflessness and the bravery of these responders who responded 
to this horrible, horrific disaster. It also, by the way, says 
a lot about the greatness of our Country, the United States of 
America. I mean, we know that these are difficult economic 
times, but the American people, as always, have responded to 
the devastation of Haiti by donating millions upon millions of 
dollars, goods, and services, even donating time and physical 
labor to try to help the people who are struggling in Haiti. 
Obviously, then, through their Government also, as taxpayers 
also have contributed greatly to the efforts, and they are 
efforts that one can only imagine the difficulty that the 
people are going through right now.
    I would be remiss, Madam Chairwoman, if I didn't recognize 
the contributions of the U.S. armed forces, the Coast Guard, 
the Department of State that you have mentioned, FEMA, that you 
have also mentioned, our State governments, and obviously the 
search and rescue teams for their unbelievable generosity. 
Working through those incredible challenges on the ground, 
including the limited airport capacity. It was impossible at 
first to get things in and out. The fact that the port was 
basically destroyed, the damage of the infrastructure.
    These search and rescue teams were in Haiti within hours of 
the earthquake and quickly began their efforts when they were 
there. Six search and rescue teams, comprising over 500 
personnel, were sent from the U.S. to join other teams from 
other countries, again, to search for survivors and to try to 
save people from the rubble. And these efforts did result in 
numerous, numerous many lives actually being saved. In fact, 
just last week international search and rescue operations found 
a 16 year old girl still alive more than two weeks after the 
earthquake, which is just hard to believe.
    The efforts of the search and rescue teams resulted in the 
largest number of survivors of this type, this kind of effort, 
in history, is my understanding, so we can't speak highly 
enough of the efforts they are doing.
    Now, it is going to take years before the response and the 
rebuilding process is complete. They will eventually be 
complete, but the scars never go away, and we know that. But it 
is my hope that we can learn from this disaster in order to be 
even better prepared to mitigate against and to respond to the 
next major event, whether it is in the United States or whether 
it is abroad.
    I really want to thank again the witnesses for joining us 
today. I know they have all been slightly busy, even busier 
than usual, in the last few weeks, and I appreciate all of you 
taking the time to travel here to the Capitol to share your 
experiences and your expertise with us today.
    As the Chairwoman said--and, again, I need to thank her for 
her leadership--whatever is learned--and I know that I have 
already heard some issues that we can improve on, and we will 
do what we can to try to incorporate it into the legislation. 
But, again, thank you all for being here and thank you, Madam 
Chairwoman, for this very important hearing.
    Ms. Norton. Thank you, Mr. Diaz-Balart.
    We will go now to the panel. William Carwile, who is the 
Assistant Administrator for Response and Recovery at FEMA; and 
Matthew Bettenhausen, who is the Secretary of the California 
Emergency Management Agency and also a member of the National 
Emergency Management Association representing emergency 
managers across the United States.
    Why don't you begin, Mr. Carwile?

   TESTIMONY OF WILLIAM CARWILE, ASSISTANT ADMINISTRATOR FOR 
RESPONSE AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT AGENCY; AND 
THE HONORABLE MATTHEW BETTENHAUSEN, SECRETARY OF THE CALIFORNIA 
  EMERGENCY MANAGEMENT AGENCY, NATIONAL EMERGENCY MANAGEMENT 
                          ASSOCIATION

    Mr. Carwile. Good afternoon, Madam Chairwoman, Ranking 
Member Diaz-Balart, and members of the Subcommittee. I am 
William Carwile, Associate Administrator of FEMA for Response 
and Recovery.
    After serving as an officer in the United States Army for 
30 years, I joined FEMA in 1996 and retired in 2005. I returned 
to FEMA last May in my present position. During my earlier 
years, I served in the field and senior management positions 
during major disasters, including the 9/11 World Trade Center 
and Hurricane Katrina in Mississippi. During these events, I 
worked closely with our Nation's Urban Search and Rescue teams.
    I appreciate the opportunity to testify before you today to 
discuss our Nation's Urban Search and Rescue teams and 
capabilities.
    The US&R system is an outstanding example of a highly 
effective local, State, and Federal partnership, a team 
approach that Administrator Fugate has stressed. In addition to 
focusing on the concept of team, one of Administrator Fugate's 
highest priorities this year is to enhance the Nation's overall 
preparedness to respond to a catastrophic event.
    The National Urban Search and Rescue Response System has 
been and will continue to be a critical part of this overall 
effort. The system plays a vital role in providing essential 
capabilities not only for the 28 teams themselves, but it has a 
multiplier effect through its establishment of standards for 
procedures and equipment. This has a very significant benefit, 
as many of the national methodologies are adopted by other 
departments, many of which have received substantial grants to 
increase capabilities under post-9/11 programs.
    Under the lead of the United States Agency for 
International Development, USAID, the lifesaving capabilities 
of the United States US&R teams were clearly demonstrated 
during the response to the catastrophic earthquake in Haiti. 
Our thoughts and prayers continue to be with the people of that 
devastated country as the recovery continues.
    Side by side with our colleagues from the international SAR 
community, to courageous Americans, including Fairfax, Virginia 
Task Force 1, the first international SAR team to arrive in 
Haiti, worked around the clock in dangerous conditions to 
locate and save survivors. For some of our U.S. team members, 
their efforts were very personal.
    Several French Creole speaking members of the Miami Fire 
Department were integrated into the deploying South Florida 
Task Force. Each one had family members in Haiti. These brave 
Haitian-Americans played an important role in recovering seven 
survivors under dangerous and unpredictable conditions. One of 
these firefighters remained in a void comforting a survivor for 
over 15 hours. Another was on the scene of a collapsed market 
for 22 hours, reassuring the survivor and gathering 
information, finally able to touch the survivor's hand as the 
teams broke through the concrete rubble. During this rescue, a 
4.0 magnitude aftershock forced rescuers to evacuate the 
collapsed building momentarily, but immediately following the 
tremor the team continued rescue efforts under these precarious 
conditions.
    In another remarkable case, a member of the Miami US&R team 
helped to rescue a woman who had been trapped for over 100 
hours. It turned out that she had a son living but a few blocks 
away from the team member's Pembroke, Florida home.
    Madam Chair, these are but a few of the countless examples 
of the courage and selflessness displayed by the US&R 
responders. In all, the United States task forces rescued 47 
survivors. While there were over 40 international teams, this 
number represents one-third of all saves.
    The impressive performance of the United States teams was 
based on years of experience and annotation to changing threat 
environment. Coordination and planning between local, State, 
and Federal partners on the development of standards and 
methodologies have resulted in expanding the scope of search 
and rescue capabilities. These include operations in hurricane, 
flood, and aviation crash events.
    Based on our renewed focus on catastrophic event 
preparedness and the experiences of last year's flooding in 
North Dakota and the Haiti deployments, the US&R community will 
conduct a comprehensive review of operations, training, 
equipment, and organization. This review will be conducted by 
those who best understand the Urban Search and Rescue system, 
including the task force sponsoring agencies, individuals who 
were responsible for establishing the system, and others with 
recent field experience.
    The goal of the review will be the development of 
recommendations on how to enhance the capabilities of the teams 
to respond to events of all kinds with additional flexibility 
and agility, and how team members with national expertise might 
be leveraged to quickly train others to perform light Urban 
Search and Rescue in large-scale events.
    Although it is premature to draw conclusions and lessons 
learned from the Haiti response, ultimately, we believe this 
experience will contribute to improving our future domestic 
response operations.
    In closing, on behalf of Administrator Fugate and the 
entire FEMA team, I want to express my admiration and 
appreciation to the courageous members of all the search and 
rescue teams for their humanitarian and lifesaving efforts in 
Haiti.
    I also want to thank you for your continued support and 
oversight of these important teams. I look forward to answering 
your questions.
    Ms. Norton. Thank you very much, Mr. Carwile.
    Yes, Mr. Bettenhausen, you are next.
    Mr. Bettenhausen. Thank you, Madam Chairwoman, Ranking 
Member Diaz-Balart, and members of the Subcommittee. Thank you 
for the opportunity to be here today to testify and share our 
experiences not only with the Urban Search and Rescue team, to 
speak more broadly, though, about mutual aid and the Emergency 
Management Assistance Compact and the leadership of this 
Subcommittee and specifically you, Madam Chairwoman, in your 
support for emergency management and homeland security in H.R. 
3377, which is important for all of us.
    I am here on behalf of the California Emergency Management 
Agency, as well as the National Emergency Managers Association, 
which represents all 50 States, the District of Columbia, and 
our five U.S. territories.
    Let me begin by commending Secretary Napolitano, 
Administrator Fugate, and my good friend--well, Craig is also a 
good friend--and Bill Carwile for their help, their support, 
and their leadership. It has been a pleasure to work with them. 
And, as the Ranking Member knows, it seems Florida sort of has 
the monopoly over the Administrator with Chief Paulsen and the 
former administrator.
    This has been an important partnership. It is about the 
team effort, as Bill spoke to the Committee about. It is about 
those partnerships and the team effort because it is not a 
Federal effort, it is not a State or local effort, it is a 
national effort; and this is a wonderful opportunity for the 
Subcommittee and the public to learn about the great things 
that we are doing.
    But the bottom line is, when we look at emergency 
management and we look at preparedness, not only does it have 
to be a national program, we have to recognize that all 
incidents are local, and you need to build capabilities from 
the bottom up. And that is one of the things that the EMAC, the 
Emergency Management Assistance Compact, and the Urban Search 
and Rescue teams are based on; it is that all incidents are 
local and, as you said, Madam Chairwoman, it is one for all and 
all for one in terms of sharing and leveraging these resources, 
which is critical for the wise investment and use of our scarce 
taxpayer dollars.
    I am pleased to come from a State who has gotten this and 
has led the Nation in terms of its mutual aid efforts. Governor 
Schwarzenegger makes clear to his cabinet all the time that 
public safety has to be government's number one priority. 
Constitutionally, when you look at it, it is only government 
who can provide law enforcement services and the kinds of 
things the voters expect us and our constitutional form of 
government expect us to do, is to provide them with public 
safety. And one of the ways that we can effectively do this, 
and most effectively do it and efficiently, is through the 
mutual aid system.
    We are pleased, of the 28 teams that FEMA sponsors in terms 
of Urban Search and Rescue, eight of those are located in 
California. They have been vital for responding to all sorts of 
disasters, as well as building collapses, and day-in and day-
out events where they are there 24/7, 365, saving lives and 
property. It is a wise investment that we have made both at the 
State, local, and Federal levels to support those teams.
    Those teams have been deployed to the Gulf States in 2005, 
after Katrina and Wilma; they also, with Gustav and Ike, were 
deployed to Texas and Louisiana as we had those earthquakes. 
Our teams, the eight that we have, have been built up with 
swift water rescue capabilities. It is something that all 28 of 
the US&R teams should have.
    Earthquake risks are not alone to California. I am 
originally from and did homeland security for the State of 
Illinois. The New Madrid Fault that last went off in 1810 and 
1811, which rang church bells out in Boston and Philadelphia, 
shows that the Midwest is also at risk for the type of 
catastrophic incident that these US&R teams would be important 
to support.
    One of the questions we all get, Madam Chairwoman, and that 
we often hear is why should the Federal Government support 
these State and local assets, and they are principally local 
assets. It is because the Federal Government doesn't own these 
capabilities, and they shouldn't build these capabilities to 
have them sitting around, waiting for the all like the Maytag 
repairman. Rather, instead, they should be built, as they have 
been, in local departments, where they are there working, 
training, exercising and saving lives 24/7, 365.
    The cost of these teams is shared, but the bulk of the 
expense falls on locals and States. FEMA currently provides $1 
million a year to each of the 28 teams. We estimate the cost 
just for equipment and exercising, as you go through that, is 
about $1.7 million a year. That is not counting the cost of 
personnel. We as State and locals are assuming about a $10 
million cost for these teams, which consist of 70 members in 
each of the positions, from medical, hazardous material, search 
and rescue capabilities.
    Those personnel costs, those insurance costs, those 
licensing costs, are picked up by State and locals, and having 
those 70 positions filled three deep is about 210 people for 
each of these task forces and about 6,000 people nationwide. If 
you add those up, it approximately costs about $10 million a 
year in personnel costs, equipment, and exercising to maintain 
these teams.
    So we need to have the support of FEMA to fully fund the 
operational costs, which would come to about an additional 
million dollars a year in support.
    In addition, there are liability issues that have not been 
resolved for our Urban Search and Rescue teams, and H.R. 3377 
will go a long way to addressing them. Another way to deal with 
it would be to do it under the Emergency Management Assistance 
Compact, which has liability issues worked out. But these 
heroes who are going out and saving lives should not have to be 
worrying about may happen to them or their families if they are 
hurt and injured while they are rescuing, saving lives, and 
providing comfort to those who have been victims of a 
catastrophic incident.
    While I am here, I want to plug the Emergency Management 
Assistance Compact, which is a way that not only can we share 
Urban Search and Rescue teams, but fire resources, swift water 
rescue teams, hazardous material response. All of that can be 
done through the Emergency Management Assistance Compact, which 
NEMA supports with FEMA. And the $4 million investment the two 
make to support the EMAC system, which is also in H.R. 3377, is 
a bargain for the American taxpayers.
    Let me conclude by saying that we in government continue to 
work very hard to get better prepared and do the work that we 
need to do to build our capabilities and resources, and 
leverage those resources efficiently and with value to the 
taxpayers through mutual aid. But citizens have a 
responsibility to get prepared themselves, and our paid 
response teams, in terms of the Urban Search and Rescue teams, 
are also supported by great volunteers who are out there, such 
as Community Emergency Response Teams, a concept developed in 
Los Angeles and in California. We have those teams that are 
also there as a surge capacity to assist us. In these 
catastrophic incidents, it requires an informed and prepared 
public so that we have survivors, not victims.
    So I thank you for your support. I thank you for the 
opportunity to be here and welcome any of your questions.
    Ms. Norton. Thank you very much, Mr. Bettenhausen.
    Before I begin questioning, could I ask the members who 
have come in whether they have any brief opening remarks?
    Mr. Cao. Well, thank you very much, Madam Chair. First of 
all, Madam Chair, I would like to introduce to you a group of 
students from New Orleans. They are from the McKee School. They 
were in my office and we were discussing about the U.S. 
Government and how Congress operates and do our work up here, 
so I asked them to follow me to a Subcommittee hearing.
    And I just want to introduce to the students from New 
Orleans Congresswoman Norton. She represents the District of 
Columbia. And besides Congressman Diaz-Balart of Florida, 
Congresswoman Norton has been one of the greatest champions of 
the recovery effort in New Orleans. She has held many hearings 
in connection with FEMA and other Federal agencies to make sure 
that New Orleans gets the money that we need in order for us to 
rebuild and recover. So we owe a great debt of gratitude to 
Chairwoman Norton, and I hope that once you get back to your 
classes, you can write her a letter and thank her for the hard 
work that she is doing up here to make sure that we get what we 
need in New Orleans.
    Madam Chair, I give back my time. Thanks.
    Ms. Norton. Well, I thank the gentleman from Louisiana for 
the generosity of his remarks and thanks. It has been a 
pleasure to work with him, particularly given the great 
priority we believed that the Gulf Coast and especially New 
Orleans, which suffered this ravaging tragedy, should have.
    Would you raise your hands so we can see which--welcome. We 
just want to welcome you here. Mr. Cao is working very hard; he 
wants to make sure that Louisiana and New Orleans are brought 
up every moment he can. So I appreciate that he has invited you 
to this hearing, and I hope we are not boring you too much.
    Are there any comments from any other members?
    [No response.]
    Ms. Norton. No? Let me then begin first with thanks, 
because already I think members have learned from your 
testimony. Mr. Carwile, could you tell us approximately how 
many personnel and urban rescue teams are deployed from the 
United States to Haiti at this moment? Some of them, I know, 
have returned. I am just trying to get a handle on about how 
many of our people have been there doing this work. We have 
seen them on television.
    Mr. Carwile. Yes, Madam Chairwoman. The number was 564 
members of both Urban Search and Rescue teams--those are the 
two teams that came under the foreign teams--and the remaining 
teams that, under arrangement with USAID, we sent down. 
Additionally, we sent down parts of our Mobile Emergency 
Response System Communications to provide overall 
communications for both the Urban Search and Rescue teams and 
other U.S. Government agencies.
    Ms. Norton. Wait a minute, this is important. These are 
communication teams.
    Mr. Carwile. Yes, ma'am.
    Ms. Norton. In a country which not only doesn't have its 
basic infrastructure up, but I can't believe that there is any 
communication. And Mr. Cao will understand, from Louisiana, 
that much of the tragedy stemmed from not being able to 
communicate. Was there any communication left?
    Mr. Carwile. Ma'am, it was severely damaged, as you 
suggest. So without having sent down the Mobile Emergency 
Response System, it would have been much more difficult for our 
Urban Search and Rescue teams to communicate.
    Ms. Norton. So they can stand up equipment that allows who 
to communicate with whom?
    Mr. Carwile. Yes, ma'am. The teams set up three repeaters 
and it enabled the teams that were deployed, doing the rescue 
work, to communicate back to the Urban Search and Rescue team 
headquarters, if you will, the DART, Disaster Assistance 
Response Team, under USAID. It tied in the ambassador in the 
embassy, as well as Secretary Napolitano, of course, had other 
interests besides hers and FEMA there. ICE was there, the 
United States Coast Guard was there, as well as the Customs and 
Border Patrol. So it provided a command and control node for 
those elements back here. As a matter of fact, the moment we 
had been deployed there, we had video teleconferencing back to 
us here in Washington.
    We also provided external affairs and set up the joint 
information center for the U.S. Embassy in Haiti.
    Ms. Norton. So we have to understand that everything was 
down; that there is no parliament, that the prime minister 
didn't have a radio that he could talk to anybody with. And we 
have the kind of equipment that can set up communication in a 
country that essentially has none. If we can do that in Haiti, 
you can imagine how important that is in the United States, 
because we have States that are vast where whole millions of 
people, or certainly hundreds of thousands of people, would be 
left without any way to communicate; and we have already seen 
what happened in Louisiana.
    I am interested in cost. The people of the United States, 
not only through their Federal Government, but through their 
State and local governments, have borne this expense, and I 
think we need to understand how that occurs, especially since, 
on the question of tort liability, we have, in our 
reauthorization legislation, some sections that would deal with 
this.
    Now, as I understood your testimony, Mr. Bettenhausen, 
personnel liability costs are borne by the State?
    Mr. Bettenhausen. Principally by our local governments, 
because these teams are based, like, for example, Task Force 2, 
from LA County that went to Haiti, that is borne by LA County.
    Ms. Norton. While they are deployed in other States or in 
other countries?
    Mr. Bettenhausen. No. When they are deployed--it is 
probably easier just to talk about if it were domestically. 
That is usually going to come under a president's disaster 
declaration, which FEMA then would be reimbursing the cost for 
their time while on the scene.
    Ms. Norton. Now, this is important to note for the record 
as well. These teams are your normal emergency management folks 
with a lot of expertise, and they acquire a lot of it, or more 
of it as they are deployed elsewhere. But these are people that 
the State or the local government pays for. But when these 
teams are in another State and you hear Fairfax County, for 
example, all over the Country and other places, or in Haiti, 
FEMA picks up the cost. All the cost?
    Mr. Bettenhausen. Cost while they are deployed.
    Ms. Norton. While they are deployed.
    Mr. Bettenhausen. Of course, they will replace the 
equipment but, you know, on a 24/7 basis, these firefighters, 
these hazardous materials experts, these engineers, the 
paramedics, they are on the payroll to be ready and to be on 
call, and that is the expense which is the largest expense of 
maintaining those teams----
    Ms. Norton. This is wonderfully efficient way to do 
government. If you are in Fairfax County today, you are not 
going to get a lot of practice doing major disasters, I hope, 
since you are right across the river from us. So if a disaster 
comes, with all that expertise that you may have, you have not 
really had real-time experience. This way, when you go to Haiti 
or when you go to another State, in essence, that is helping 
you to not only acquire, but to maintain expertise you need in 
your local jurisdiction. You pay for it while they are there; 
we pay for it when you are deployed elsewhere. If you in 
California were needed in Nevada, who would pay for that?
    Mr. Bettenhausen. If there was a presidentially-declared 
disaster, FEMA would pick up the cost. Now, if it weren't a 
presidentially declared disaster, as we deploy these throughout 
California or elsewhere, particularly within California, we 
have our own disaster systems act, where the State would pick 
up 75 percent of that cost.
    I think it is also important, when you talk about these 
real-life events that they respond to, these teams, these 
professionals, are training and exercising all of the time; 
and, as you talked about, construction accidents, trench 
collapses, train derailments, as we have seen here in D.C. 
These teams are equipped and prepared to respond to those and 
save lives and property.
    It is that training and exercising, though, and those local 
incidents that go through that equipment that requires the 
support from FEMA. It is a small price to pay for the Federal 
Government to have these assets and resources available as 
national assets in the time of catastrophe. And when we are 
talking about the expense, right now the Federal Government is 
picking up only about 10 percent with the million dollars that 
they are funding each of those teams. They should fully cover 
the costs of the equipment, training, and exercising that goes 
on for these teams, which would require----
    Ms. Norton. Wait a minute. Would you clarify that? Picking 
up 10 percent of the cost of what?
    Mr. Bettenhausen. Of maintaining and supporting these 
teams.
    Ms. Norton. Well, I thought the Government does refurbish 
and help with equipment.
    Mr. Bettenhausen. A million dollars a year. It costs $1.7 
million in equipment and training expenses each year to 
maintain each of these teams.
    Ms. Norton. I see.
    Mr. Carwile. Madam Chairwoman, if I might, a point of 
clarification.
    Ms. Norton. Yes, Mr. Carwile.
    Mr. Carwile. The teams that deployed under FEMA to Haiti, 
those were under the Foreign Assistance Act of 1961. We had an 
interagency agreement with USAID, so they are going to 
reimburse us for the cost. Just a point of clarification, 
ma'am.
    Ms. Norton. No, that is an important point.
    Mr. Carwile. Yes, ma'am.
    Ms. Norton. This will not come out of the FEMA budget, it 
will come out of the USAID budget?
    Mr. Carwile. That is correct, ma'am. As well, the other big 
benefit, I think, of the teams is they set standards and 
procedures and doctrine for the rest of the Nation. I mean, 
that is one of the other added benefits to tag on what my 
friend Matt Bettenhausen talked about.
    Ms. Norton. I have just one more question and then I will 
move to the Ranking Member.
    I was pleased to learn that the U.N., working with Haiti 
prior to the earthquake, was apparently trying to replicate 
something of the model we have, something called the Citizens 
Emergency Response Team Program that began in the States. Do 
you see the possibility that something like the Urban Rescue 
and Response teams can in fact be on the ground in a place like 
Haiti? And has any other jurisdiction where FEMA teams have 
served taken up this model on their own?
    Mr. Carwile. Ma'am, the practice of the United States 
Agency for International Development, those two teams that 
deploy is to leave their equipment and then train the host 
nation individuals, in this case the Haitians, on that 
equipment. Moreover, I know several countries around the world 
have used the United States model for Urban Search and Rescue 
teams. I know before the Beijing Olympics, for example, the 
People's Republic of China was looking to create that 
capability, and they used our teams as a model for that.
    So there will be an increased capability in the country of 
Haiti.
    Ms. Norton. But you are leaving the equipment in Haiti?
    Mr. Carwile. Yes, ma'am. The USAID teams, the two 
international teams, it is their practice----
    Ms. Norton. And this is teams from Fairfax and from Los 
Angeles?
    Mr. Carwile. Those two teams, yes, ma'am, the international 
teams.
    Ms. Norton. So what do they carry to Haiti?
    Mr. Carwile. Well, they carried their basic load. There are 
70 individuals plus their other bioptic equipment, their 
medical equipment, and their jaws of life, all those kinds of 
pretty sophisticated equipment. But this is part of the USAID 
program to train the host country and give them the capability 
that remains there.
    Ms. Norton. So does that mean that people are being trained 
on the ground in Haiti now with Urban Rescue and Response, 
where you will leave equipment there with people who know how 
to take care of it and who can do the best they can? You will 
actually have trained people when you leave?
    Mr. Carwile. Yes, ma'am, that is the practice of the USAID 
to do that.
    Ms. Norton. Thank you very much.
    Mr. Cao?
    Mr. Bettenhausen. Madam Chairwoman?
    Ms. Norton. Oh, excuse me. Mr. Bettenhausen?
    Mr. Bettenhausen. Specifically to the CERT teams, the 
Community Emergency Response Teams,----
    Ms. Norton. The citizen teams.
    Mr. Bettenhausen. Yes. They are fantastic. They are our 
surge capacity in terms of what they do and train, and can come 
in behind the FEMA-sponsored Urban Search and Rescue teams. We 
have those located in communities throughout California. The 
governor created the first cabinet level position of service 
and volunteerism to help support this because the public is 
anxious and sometimes we in government just don't ask them for 
their help and support, and these CERT teams are valuable. They 
come with the technical expertise.
    Three years ago we started a nationwide training exercise 
for CERT teams, so other States that have CERT teams have 
brought them out to California; they train and exercise 
together. But they bring radio communications abilities, they 
bring all--just like the Urban Search and Rescue teams, they 
bring those capabilities and they are used throughout the 
United States. There were CERT teams deployed to the Gulf 
States for Katrina.
    Now, whether they would be deployed internationally, it is 
not likely, just given the depth that we have with the 28 
teams. You know, we had Task Force 1 and 2, the USAID teams. We 
had Task Force 5 and 7 at our airports, ready to go, from 
Orange County and Sacramento. With those 28 teams, I think that 
there is probably enough capacity and the logistics are a 
little bit harder on the volunteer citizen teams than it would 
be for these teams.
    Ms. Norton. Well, Mr. Carwile, does FEMA encourage or have 
any program to encourage these Citizen Emergency Rescue Teams 
all across the United States? What is that program?
    Mr. Carwile. Yes, ma'am, that is a program, the Community 
Response Teams, that has been active. Additionally, 
Administrator Fugate--in the whole urban search and rescue 
issue and my friend, Matt, is correct, 28 heavy teams is 
probably about the right answer.
    However, based on lessons learned--I happen to have been 
the Federal coordinating officer in the four hurricanes that 
hit Florida in 2004 and then in Mississippi in 2005--there is a 
real need for light Urban Search and Rescue, without all the 
very heavy equipment. So we are engaging in discussions as late 
as this morning with the National Guard to train others, 
including the National Guard, on how to do basic light urban 
search and rescue to get kind of a Force-Multiplier, and we 
have been working with sponsoring chiefs to develop a program 
instruction to expand the capability of light urban rescue 
using National Guard. And in the State of Florida they use 
volunteer groups, as well, as I think much like California 
does.
    Ms. Norton. But that is not a FEMA activity?
    Mr. Carwile. Ma'am, the sponsors are putting together the 
program and instruction, marrying up the Urban Search and 
Rescue teams with National Guard units and others will be under 
our auspices.
    Ms. Norton. Will be a FEMA program?
    Mr. Carwile. It is very low-cost, actually.
    Ms. Norton. Yes. And as Mr. Bettenhausen says, people are 
anxious to be useful, and here is a perfect opportunity.
    Mr. Cao?
    Mr. Cao. Thank you, Madam Chair.
    Mr. Carwile, I was driving through New Orleans several days 
ago and I was listening to one of the local radio stations, and 
one of the hosts was proposing why not use some of the FEMA 
trailers that we presently have, ship them to Haiti to help the 
people there? Can you comment on whether or not that proposal 
is actually workable, whether or not the cost benefit analysis 
would be something that we can ascertain?
    Mr. Carwile. Congressman, we have been working extremely 
closely with our colleagues at USAID. As a matter of fact, 
Administrator Fugate and Administrator Shaw together went down 
to Haiti and visited the site of the destruction and visited 
many of our Urban Search and Rescue teams. We have provided a 
large amount of resources to USAID. As the lead Federal agency, 
they have not articulated any requirement for the trailers. I 
would tell you, having come from Hawaii and having been the 
director of the Pacific Area Office, that, in general, there 
are some issues. I don't know what is in the lead Federal 
agency's mind, but they have not considered, that we know of, 
sending FEMA trailers down.
    Mr. Cao. Well, I know that FEMA is in the process of 
auctioning out many of those trailers. The last number that I 
heard, FEMA was trying to sell about 100,000 trailers at 
pennies to the dollar. So I figured whether or not the trailers 
can be put in better use. Obviously, with the people of Haiti, 
they are presently living in tents. A lot of them don't have 
shelter over their heads. I am pretty sure that these trailers 
would be very beneficial, even though we have to address the 
issue of formaldehyde in these trailers.
    Can you provide me, Mr. Carwile, maybe with an inventory 
with respect to how much FEMA still--how many numbers of 
trailers FEMA still has in its possession?
    Mr. Carwile. We will provide that to you.
    Mr. Cao. And also a cost benefit analysis of shipping a 
trailer to Haiti?
    Mr. Carwile. We might defer that to our colleagues at 
USAID. That would be under their auspices and not FEMA'S, of 
course.
    Mr. Cao. Sure.
    Mr. Carwile. We can approach our colleagues over there with 
that.
    Mr. Cao. I would like to ask you how has FEMA implemented 
some of the lessons learned in Katrina? Have they applied that 
to Haiti in regards to certain rescue? Also, what have we 
learned in Haiti that we can implement in future disasters in 
the United States?
    Mr. Carwile. That is a really good question and that is why 
we are going to undertake and have a game plan to undertake a 
very detailed after-action review, as well as the Urban Search 
and Rescue teams have been conducting after-action reviews as 
they redeploy and demobilize. I can tell you there are a lot of 
differences. The basic blocking and tackling, the saving lives, 
the working in the rubble certainly in an overseas environment 
is very similar, whether it is Mexico City, Armenia, or Haiti 
and the United States.
    There are some differences, and I am sure my colleagues 
that follow on can address those. In terms of working in an 
international environment, under the United Nations, under 
USAID, there are over 40 teams from around the world that were 
down there, so some of those--some of the lessons learned may 
have to do with working in that different kind of environment. 
But certainly lessons learned, I think my colleagues, the 
chiefs that come up, are really experts in this and can address 
this, but it has been an evolving program and continues to 
mature and learn lessons through every single event, all the 
events that the Chairwoman referenced in her opening remarks. 
Every one of those has resulted in improvements to the system.
    Mr. Cao. Madam Chair, if you can allow me one more 
question.
    Ms. Norton. Certainly.
    Mr. Cao. One of the students from the McKee School that are 
in here right now asked me a question that I did not really 
know the answer to, and it deals with hazard mitigation in 
regards to I guess individual homeowners rebuilding. There was 
an issue of qualification based on the cost to rebuild per 
square foot. I know that this hearing does not deal directly 
with recovery issues and with individual homeowners, but, 
still, if you can provide me with information regarding what is 
FEMA policy in connection with hazard mitigation in regards to 
individual homeowners.
    What are some of the qualifications? Is there a cost per 
square foot limit that FEMA can assist? All those issues that 
deal with individual homeowners applying for hazard mitigation 
that they want to apply to their homes. Obviously, here we are 
talking about homeowners in the 2nd Congressional District in 
Louisiana that were damaged by Katrina and other hurricanes.
    Mr. Carwile. We will be happy to provide you information on 
that. We mixed a couple different programs, the Individual 
Assistance Program and then the Hazard Mitigation Program, but 
we will provide follow-on information for you, Congressman.
    Mr. Cao. Thank you very much.
    I yield back.
    Mr. Bettenhausen. If I could also add to that. In the 
discussions on H.R. 3377, while it doesn't go to individual 
assistance for homeowners, the National Emergency Managers 
Association and in that bill supports the reauthorization for 
the pre-disaster mitigation funding, and that is critical. A 
dollar spent on prevention is going to save a lot in response 
and recovery costs. So, in H.R. 3377, it would help us a lot in 
government for the public assistance to have the 
reauthorization for the pre-disaster mitigation grant funding.
    Ms. Norton. Thank you, Mr. Cao.
    Before I go to Ms. Edwards, in deference to the fact that 
we are fortunate that the Chairman of the Full Committee has 
joined us today, could I ask Mr. Oberstar if he has any 
statement or questions?
    Mr. Oberstar. [Remarks in foreign language.] That is in the 
language of Haiti, the Creole language, thank you, Madam 
Chairman; only in Creole and in French it is Madam President. I 
love to have the French come and visit and said Messr. 
President. It only means Chairman in our language, but it 
sounds good. But that Haitian Creole expression, you are a 
loaded mule means you have a lot of work, but with many hands 
the work is lighter. Or we say many hands make light work. The 
Haitians have an expression for just about everything. I lived 
there three and a half years and learned the language, and love 
it and treasure it and love the Haitian people.
    Mr. Cao suggested sending FEMA trailers to Haiti, not with 
the formaldehyde, though. We wouldn't want to--in addition to 
the international problems of moving product from the U.S. 
overseas with foreign trade issues and others that attend this 
matter, and then the question of how you bring them back, what 
you are supposed to do at the end of their use for an 
emergency, we wouldn't want to be exporting a source of 
illness, certainly not to our neighbors in the Caribbean.
    Lessons learned, I think the most important lesson learned 
from Haiti is to have building codes. They have never had 
building codes. If they had, there is no enforcement mechanism. 
The Haitian government has so many other things too be worried 
about that building codes are way down the list of their issues 
of concern and for enforcement.
    I think Haiti is on track to do that. I think the lesson 
learned in Haiti is more important for the Haitians than for 
us, and that is you need to have a building code, you need to 
have an enforcement mechanism in the rebuilding process. Don't 
just put concrete block on concrete block, in many cases, 
without mortar, without rebar, without foundations. In light of 
what we know, this is one of the most active seismic areas in 
the hemisphere, and that issue never had raised itself. There 
was no preparation.
    Lesson learned from Minneapolis, when the bridge of I-35 
over the Mississippi River collapsed, the response was 
impeccable because Mayor R.T. Reibach of Minneapolis had 
availed himself of FEMA'S pre-disaster planning funds, Madam 
Chair and colleagues, and put his entire city governance 
apparatus and that of the first responders of St. Paul through 
a three-day training exercise two years before--or was it a 
year? It was a year and a half before the collapse of the 
bridge. When it happened, they were prepared. They all knew 
what to do. They had communications, they had coordination, 
they had equipment available, they had hospitals prepared to 
accept the injured and the mechanisms to deal with the 
fatalities.
    There was no such planning in Haiti. The Coast Guard was 
the first on station, on response. They did everything they 
could. I would just like to read--I get a daily report from the 
Coast Guard. From Day 4, after the four Coast Guard cutters 
were offshore and two more enroute from Health Services 
Technician Larry Berman: Today gave my partner, Elias Gomez, 
and I the mental break we needed from running the clinic for 
the past three days without any medical officers to team with. 
Elias ran the pharmacy and I ran the medical supply. I took a 
moment to pray and thank God for the surgeons as our emotions 
surfaced. We saw about 100 patients today. In four days our 
count is 350.
    In the next lines he says: I want to pass on the story of 
the miracle betadine, the surgical soap used to cleanse and 
prepare an area for surgery and to cleanse wounds. We started 
the day with two and a half gallons and we never ran out. Every 
patient had wounds requiring betadine. Some need lots of 
betadine. I'm telling you, it was God that kept that soap 
flowing; otherwise, the clinic would have had to stop seeing 
patients.
    What do they need? He said, here is what we need: morphine, 
Kerlix--which is gauze bandage--betadine by the gallon, triple 
antibiotic ointment, wash basins, medical supplies, medical 
staples, Ace wraps, crutches, canes, sutures, Zylocane, tubing, 
mops, brooms, thermometers, suture sets, headbands for 
lighting, and Gatorade for the team.
    Everything is needed and it is needed all at once in Haiti.
    An important lesson learned is coordination. There are a 
host of organizations, all working at the same time, from many 
countries, many cultures, many languages, many different 
practices, all within a government structure which largely was 
destroyed by the earthquake; government buildings collapsed, 
important ministers killed, staff personnel disrupted, the 
president having to operate out of inadequate quarters without 
communications.
    I recommended to President Obama that he bring James Lee 
Witt, who already was in Haiti under a contract with the 
Haitian government prior to the earthquake guiding and training 
people in disaster response. He didn't have much time, he 
hadn't been there very long before the earthquake struck; and 
his role now has been expanded under a contract with AID. But 
you need organization structures for long-term recovery of the 
infrastructure and I have had discussion with Chairwoman Norton 
and with our wonderful Ranking Member, Mr. Diaz-Balart, about 
long-term recovery, and we need to be doing some things here in 
this Committee to prepare for that.
    Command and control and coordination on the ground, that is 
still an issue, is still something that needs attention. Most 
of our U.S. Government agencies who respond are accustomed to 
operating under presidential directions, but AID is not in that 
mode; AID operates in a different structure.
    So we need to re-think the role of AID in a disaster 
response situation. You need coordination with the 10,000 NGOs, 
non-governmental organizations, that are in Haiti. Why do you 
have 10,000? Because during the Duvalier dictatorial era, no 
government was willing to deal with the corruption of Duvalier, 
so they went around the government and worked with the NGOs, 
which proliferated; and in that process government atrophied, 
it had little or no capability to respond to its own needs.
    Ms. Brown, the Chair of our Rail Subcommittee, can tell 
you. She has organized time and again shipments of goods to 
Haiti by the truckload, by the shipload, and then they have 
trouble getting the goods into Haiti; they get to the dock, 
they wait there for weeks. Finally, we met with President 
Preval and he said, when you have that problem, call me.
    Well, she said, rightly, Mr. President, with all respect, 
we shouldn't have to call you; you should have a governmental 
structure in place that responds. That is a failure of 
government, if the president has to be involved in getting 
goods off a dock and into the hands of people who need the food 
and the clothing and the other material that we are sending.
    So coordination among the NGOs and developing governmental 
structure is critical in this process. So I think the task on 
the ground is converting Haiti from a government of NGOs to a 
self-sustaining government with a structure and with personnel 
in place. There are more talented and gifted Haitians living 
outside the country, working for the International Monetary 
Fund, The World Bank, the Inter-American Development Bank for 
African Nations.
    Haitians are gifted, talented, skilled, but because there 
was no future for them in their own country, they left. We need 
to bring them back and assure them there is going to be a 
solid, stable political future, and I think we have that 
opportunity now at our fingertips if we do this recovery right 
with the international community, but engaging the Haitian 
people at every step. This is their country, and they are proud 
of their country.
    I will just conclude with one of my favorite of the Haitian 
expressions. [Remarks in foreign language]. The pencil of God 
has no eraser. God's pencil can't erase the earthquake, but we 
can help, and that is what we have to do there.
    So I want to thank you for being--I thank Madam Chair for 
your foresight and holding this hearing. This Committee intends 
to stay on top of this issue in Haiti.
    Do you have any comment on the command, control, and 
coordination issue?
    Mr. Carwile. Perhaps my colleagues who are going to follow, 
who were actually there, sir, may do so better, but I do know 
that, from observing it and having folks on the ground 
reporting back each day, I know that the international 
community--of course, led under the United Nations--is 
certainly a different environment in terms of command and 
control communications, and I know that USAID and the White 
House has been working very closely to put together a structure 
down there with the government of Haiti going forward to enable 
them to have the kind of recovery that you described, sir.
    Ms. Norton. Thank you.
    Mr. Bettenhausen. I do think that, from what we learned 
from the teams, it is going to be one of the lessons learned 
from Haiti is those coordination issues. The international 
community hasn't adopted, like we have here in the United 
States and in California, the National Incident Management 
System and standardized, as our teams have deployed, understand 
incident command and unified command, and I think you are going 
to hear some of the challenges with the international partners 
there who are not as familiar with that kind of unified command 
and the use of the National Incident Management System.
    Ms. Norton. Thank you, Mr. Chairman, and thank you, Mr. 
Bettenhausen.
    We are going to move on to Ms. Edwards and then quickly 
move on to our next panel before there is a vote called.
    Ms. Edwards. Thank you, Madam Chairwoman, and thanks so 
much for holding this hearing today. I actually want to go back 
to the earlier discussion about FEMA and these trailers, 
because it really does concern me that the recent news reports 
that indicate perhaps some consideration of using the 
formaldehyde-laden FEMA trailers in Haiti, and I would like to 
hear directly from FEMA and from Secretary Napolitano that this 
is absolutely off the table. I think that we owe that to the 
Haitian people and we owe it out of respect, frankly, to 
Mississippians and those in the Gulf who were subjected to 
these trailers.
    Also, Madam Chair, I want to enter into the record, so that 
we make sure that we have it, a certification that is actually 
required in the bidding process when these trailers are being 
sold in open bid that is essentially a hold harmless statement 
that purchasers are required to fill out with respect to the 
acquisition of these trailers.
    And there is a portion of it that says that requires the 
purchaser to acknowledge that ``the sale and lot number may 
contain formaldehyde and I agree the United States shall not be 
liable for personal injuries to disabilities of or death of any 
persons arising from or incident to the sale of this property 
trailer, use or its final disposition, and to hold the United 
States harmless from and shall indemnify the United States 
against any or all debts, liabilities, judgments, cost, 
demands, suits, actions, or claims of any nature arising from 
or incident to the sale of the property.''
    Ms. Norton. So ordered. It will be admitted into the 
record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4757.008
    
    Ms. Edwards. Thank you. This hold harmless statement is 
required to be submitted, to be filled out by those who 
purchase the trailers, and yet there is this conversation about 
dumping--and I do use that word--dumping these trailers onto 
the Haitian people.
    You know, as Chairman Oberstar has pointed out, the Haitian 
people are resilient, they are smart, they are talented. Their 
expatriate community is all across the world and their talents 
spread every place and need to go back to Haiti. But just 
because you are poor and your immune system may be compromised 
and you don't have someplace to live doesn't mean that you want 
to live in a formaldehyde trailer. So I would really appreciate 
it if the Secretary and if FEMA would simply take it off the 
table, not make it a part of the discussion anymore, out of 
fairness to the Haitian people.
    I want to say also that--and to thank you because the 
service of our Urban Search and Rescue teams is really 
tremendous. Great people doing work that some of us couldn't 
possibly do under the most difficult circumstances. We have 
seen that at work in Haiti; we have seen that at work here on 
our own shores.
    I am curious as to whether there are barriers to more of 
our Urban Search and Rescue teams being trained or certified, 
or whatever it takes, to do more international work, because I 
do think it provides the kinds of hands-on, on the ground work 
that isn't always accessible here in the Untied States, and 
that we need the talents of multiples of these teams able to do 
that kind of work, and I wonder if you would respond to that.
    Mr. Carwile. First, on the trailers, there is no intention 
of the Department of Homeland Security or FEMA. Trailers going 
to Haiti have never been in discussions with USAID, the lead 
Federal agency on that, just to take that off the table, ma'am.
    On other teams having the capacity to go overseas, we are 
going to hear from a couple of the folks that had the 
responsibility of USAID, but I think it was remarkable that we 
were able to stand up the other teams that weren't off the 
teams and didn't have passports and didn't have shots and 
didn't have those kinds of things very quickly to respond to an 
overseas deployment. So I think there will be a lot of lessons 
learned for our domestic teams as we come back.
    Ms. Edwards. Thank you.
    No further questions.
    Ms. Norton. Thank you very much.
    I just want to establish for the record on this matter of 
Incident Command System. Now, when FEMA goes--that is what FEMA 
is trained in. Here is USAID, it is in its own jurisdiction and 
it is doing the best it can. Would it, in light of the 
expertise of the Federal Government and where it has placed the 
expertise, would it be better for FEMA to exercise that 
Incident Command--and let me explain what I mean--where 
multiple agencies get together, work on a single disaster, 
where there is no time to waste, there is no time to get 
together, how you get them all together and how you deploy them 
for the first time.
    If the Federal Government has a lead agency for doing that, 
wouldn't it, by some memorandum of understanding or action by 
this Subcommittee, be best to say, when you are overseas and 
you are using or need FEMA, FEMA'S help, FEMA will be your 
Incident Command System control?
    Mr. Carwile. Ma'am, we would always be--and you correctly 
described our role in terms of the National Incident Management 
System and the Incident Command System, much of which came from 
our great State of California. But we would certainly offer up 
our assistance to help train others----
    Ms. Norton. No, no, I am asking another question. 
Government bothers me because government immediately goes into 
bureaucratic responses; wait a minute, who is supposed to do 
this. Look, we went through this with FEMA, where who was 
supposed to do it on paper seemed to be how it must be done, 
and where the flexibility to do what has to be done when there 
is nothing in the statute saying that you are forbidden from 
doing it, was not exercised. So this Committee and Subcommittee 
had to pass a post-Katrina act. FEMA already had the authority 
to do much of what was in it.
    Now, what I am trying to find out--this is a hearing, this 
is an oversight hearing. We do fact-finding here. I want to 
know what is the fastest and best way if you deployed overseas. 
If USAID says we need FEMA for your urban rescue teams, what 
would be lost and would be required in saying not only are we 
deploying some people and some expertise, we are deploying you 
the Incident Command Control to make sure they do in fact work 
together on the ground? Is that the best practice overseas, the 
way it is the best practice in the United States of America?
    Mr. Carwile. I think it is the best practice to send an 
incident support team that provides the overhead management of 
the teams using the Incident Command System. And, actually, we 
did send augmentation to USAID to provide that expertise. They 
weren't called an incident support team, but they were actually 
augmentation and performed that function.
    Ms. Norton. Well, I appreciate that and I have no criticism 
of USAID. All I know is these are response and recovery people, 
and that 10 minutes can mean a life. So to the extent that the 
bureaucracy is trying to decide, okay, make sure the USAID 
people, who really don't know anything about incident command, 
gets stood up, that I would find quite frustrating, since quick 
action is what you are called upon to render.
    What would be your answer to that, Mr. Bettenhausen?
    Mr. Bettenhausen. In fact, the US&R teams that are going, 
they use the Incident Command, Unified Command. They have that. 
They also bring that kind of overhead support that is doing 
the----
    Ms. Norton. Who is the ``they,'' please?
    Mr. Bettenhausen. The US&R teams themselves have that 
capability within that. FEMA, on top of that, also sent in 
these overhead. The issue that I think is going to come out of 
this, though, is that while you are having good command, 
control, and communications with your teams that are deployed, 
the issue there was--you heard, for example, there were 40 
international search and rescue teams there. The overall 
coordination--if we are talking about a lesson learned, some of 
these international responses, they are not using necessarily 
the same system we are. Plus, there was the additional 
challenge that there was not COOP and COG, Continuity of 
Operations and Continuity of Government, existing there, that 
it had completely collapsed.
    So in terms of our teams going over there, they were 
correctly following it. The challenge, I think, that you are 
going to have is sort of that coordination, when it is not 
things that we----
    Ms. Norton. Mr. Bettenhausen, I don't doubt that they were 
correctly following it. What you have said about the foreign 
teams only emphasizes my point. I can't expect you all to take 
control of those teams. But if we have two agencies over there, 
we experienced this on the ground in Katrina. There was huge 
confusion about who on the ground is in charge. Now, the 
Incident Command System should be in the hands of somebody who 
has used it before and who has some practice in using it. And I 
am not suggesting even that a change in statute is necessary.
    I would ask you, Mr. Carwile, to go back and have 
discussions with USAID. I doubt that they would much care who 
dealt with a system foreign to them if it got the work done.
    Finally, let me ask does FEMA plan to support efforts in 
Haiti beyond what you are doing now? In other words, I am told 
you are near the end of recovery. Does that mean that the teams 
are coming home and they have done all they can do in Haiti?
    Mr. Carwile. Ma'am, as far as the Urban Search and Rescue 
effort, there are 12 members that had not deployed down that 
have been deployed two days ago from Los Angeles and from 
Fairfax to provide technical assistance to the contractors who 
are undertaking the recovery efforts at the Hotel Montana and 
another. So that is the last of the United States commitment to 
the recovery efforts. We do have 15 members, both MERs that I 
referred to earlier, and a small Command and Control element 
down there----
    Ms. Norton. The MERs are the communication feeds.
    Mr. Carwile. Yes, ma'am, the Mobile----
    Ms. Norton. And they are going to remain for how long?
    Mr. Carwile. Well, probably for another two weeks, ma'am. 
We are trying to reconstitute that. It has some critical 
capabilities down there well prior to the hurricane season.
    Ms. Norton. Is there not recovery from the overall disaster 
that American teams will be doing? If not rescue teams, who is 
going to be doing that? I mean, recovery, they are going to be 
in some kind of recovery. I recognize that is such an umbrella 
term. Are you a part of that or----
    Mr. Carwile. No, ma'am, we are not. USAID has the big part 
of that. I know a representative of the White House, Richard 
Reed, was down and helped craft an overall U.N. structure in 
which the United States had an appropriate role, but that will 
be an international situation under Secretary Clinton, ma'am.
    Ms. Norton. Thank you, Mr. Carwile. Unless there are--oh, 
Ms. Edwards does have a question.
    Ms. Edwards. I do, just to follow up. Now, you mentioned 
earlier that when the international teams are deployed, they 
leave equipment on the ground and then there is training. So 
how many people are still on the ground in Haiti performing 
that function, training Haitians about the use of the equipment 
and maintaining it and doing services?
    Mr. Carwile. I believe some of duties of those 12 that are 
providing technical assistance, I believe they are doing some 
of that training as well, but some of that was--a great part of 
that was done before the teams redeployed back, as I understand 
it.
    Ms. Edwards. Before the teams came back this time, this 
first go-round. All right, thank you.
    Ms. Norton. Thank you very much. We may have a vote within 
a half hour, so we want to thank this panel, very valuable 
testimony, and ask the next panel, the last panel, to come 
forward.
    This is a panel we must hear from. This is the panel that 
has been on the ground here and elsewhere, and I am going to 
call upon them in this order: Back from Haiti has come the Task 
Force from Pennsylvania 1, Fred Endrikat, Special Operations 
Chief, City of Philadelphia Fire Department; Dave Downey, 
Division Chief, Training and Safety Division, Miami-Dade 
Rescue, both of whose task forces have been there; Virginia 
Beach Fire Department, Fire Chief Steven Cover, Virginia Task 
Force 2; and, of course, Mark Kramer, Assistant Chief/
Operations, Orange County Fire Authority, California Task Force 
5.
    Mr. Endrikat, why don't you begin?

 TESTIMONY OF FRED ENDRIKAT, SPECIAL OPERATIONS CHIEF, CITY OF 
 PHILADELPHIA FIRE DEPARTMENT, TASK FORCE LEADER, PENNSYLVANIA 
TASK FORCE 1; DAVE DOWNEY, DIVISION CHIEF, TRAINING AND SAFETY 
DIVISION, MIAMI-DADE FIRE RESCUE DEPARTMENT, TASK FORCE LEADER, 
FLORIDA TASK FORCE 1; STEVEN COVER, FIRE CHIEF, VIRGINIA BEACH 
 FIRE DEPARTMENT, SPONSORING AGENCY CHIEF, VIRGINIA TASK FORCE 
 2; AND MARK KRAMER, ASSISTANT CHIEF/OPERATIONS, ORANGE COUNTY 
FIRE AUTHORITY, SPONSORING AGENCY CHIEF, CALIFORNIA TASK FORCE 
                               5

    Mr. Endrikat. Thank you, Chairwoman Norton, Ranking Member 
Diaz-Balart, Chairman Oberstar, and distinguished members of 
the Subcommittee. I have been a Philadelphia firefighter for 35 
years and I am speaking today as a first responder in relation 
to my duties in Philadelphia and a FEMA National US&R Response 
System member who arrived in Haiti on January 19th. As the FEMA 
US&R National Task Force Leaders representative, I also have 
the responsibility and privilege to speak on behalf of the 
nearly 6,000 members of the Federal Emergency Management 
Agency's US&R National Response System.
    With all due respect and condolences to the people of Haiti 
in the aftermath of this devastating disaster, it is important 
to look at the international emergency response to this 
incident and determine how to apply lessons learned in Haiti to 
our future operations here at home. The following observations 
and recommendations are in no way intended to serve as a 
criticism of the response operations in Haiti. They are 
submitted with the thought that we have an obligation to use 
this experience and leverage what we learned in the sole 
interest of better preparing our Nation and serving our 
citizens.
    There were many lessons learned, and I would like to focus 
on four main areas.
    Tiered response. We must ensure that we continue to develop 
a structured tiered response capability that places an emphasis 
on first responders and common operating platforms. All 
disasters start as local level events. The faster we can engage 
technician level rescuers in a tiered response after a sudden 
onset event, the more likely it is that we will save many more 
lives.
    Haiti did not have a fully developed technical rescue US&R 
capability at the local, regional, or the national level, and 
precious time was lost in the immediate hours after the initial 
earthquake as a sufficient number of skilled rescuers were not 
quickly able to engage in rescue operations.
    It is vital for us to continue to fund local government 
technical rescue and US&R initiatives by way of the Homeland 
Security Grant Program, Urban Area Security Initiative Grants, 
Maritime Port Security Grant Program, and possibly other 
related Federal funding mechanisms that are not tied 
specifically to response to terrorism. It is important for 
FEMA'S National US&R system to continue our outreach to other 
responders, including the State Urban Search and Rescue 
Alliance, to assist them in building upon their good work as 
they continue to develop technician level response capabilities 
at the local, regional, and State levels. This will enable our 
Nation to put rescuers that are trained to the highest 
technical levels to work in the shortest amount of time 
possible.
    Second area is command and control. Strong unified command 
and control is essential for successful rescue operations at 
catastrophic events. In Haiti, US&R operations were coordinated 
by the United Nations On-Site Operations Coordination Center. 
At a similar event in the U.S., operations would be directed by 
the local authority having jurisdiction, with assistance from 
the Federal Government, with the FEMA US&R Incident Support 
Team having a significant role. The FEMA US&R system needs a 
structured formal mentoring and shadowing program for our less 
experienced incident support team members. We have an 
obligation to fully train and exercise these field managers 
before we assign them to critical roles at an actual disaster.
    One of the many observations that was communicated to me by 
FEMA US&R System Task Force Leaders operating in Haiti was that 
international teams of widely varying staffing and capability 
were assigned to similar sized large operational areas, which 
in Haiti were called sectors, and that certain sectors did not 
have enough resources assigned to adequately perform prioritize 
search operations in a given operational period.
    At home, we should continue to develop and implement the 
National Incident Management System resource-typing standard. 
We need to develop a comprehensive national catalog of all US&R 
resources in this Country and we need to catalog them in 
relation to the NIMS typing standard, and then eventually 
validate their readiness by the use of an assessment tool 
similar to the FEMA US&R National Response System Operational 
Readiness Evaluation Program.
    Two specific aspects of recognizance and search operations 
in Haiti warrant our attention here at home. The foundation of 
how we operate here in the U.S. for our concept of operations 
for effective search and rescue actions at large-scale 
catastrophic events is effective recognizance. Sector 
assignments and corresponding mapping during the recognizance 
phase in Haiti presented a significant challenge. In the first 
days of operations, Florida Task Force 1 and some of the other 
FEMA US&R Task Forces deployed to Haiti were using tourist maps 
provided by the U.S. Embassy. Search assignments were developed 
along geographical borders rather than like-sized grids.
    The FEMA US&R system has a strong working relationship with 
the National Geo-Spatial Intelligence Agency. Their analysts 
and technicians are able to provide sophisticated mapping that 
contains detailed grid references with corresponding up-to-date 
satellite images, as well as Light Detection and Ranging, or 
LIDAR, graphics soon after a sudden onset disaster occurs.
    Included in your briefing packets in the section following 
my written testimony are examples of the mapping products 
developed by NGA. We have to continue to use their technology 
when we have disasters here at home.
    FEMA Administrator Fugate has recently shared his vision of 
a Force-Multiplier concept with the leadership of the FEMA 
National US&R Response System. This Force-Multiplier concept 
would use the 28 FEMA US&R Task Forces to assist impacted local 
and State governments at disasters when requested and build 
upon their operational capabilities and expertise by training 
selected Department of Defense assets and non-FEMA US&R assets.
    By pairing these trained resources with the 28 FEMA US&R 
Task Forces, recognizance and initial search operations at 
complex events could be accomplished in a much more efficient, 
uniform manner, creating a significant positive impact in the 
areas of search documentation and operational planning.
    It is vital that we continue to support and further develop 
our all-hazards National US&R system, which also serves as a 
best practices model for our local, regional, and State US&R 
teams, and it is important that we address a number of related 
administrative and funding concerns.
    Chairman Oberstar's House Resolution 3377 addresses the 
current administrative concerns involving the National US&R 
program by consolidating the statutory authority for the system 
under the Stafford Act and explicitly authorizing the US&R 
system. As of January 26th, it was reported that a total of 134 
people were rescued from collapsed structures in Haiti by 
rescue teams that responded from all over the world. Forty-
seven of those people were rescued by the efforts of the six 
US&R Task Forces from the United States.
    Some of those rescue operations were extremely complex, 
with one of them taking a Task Force from the U.S. 30 hours to 
complete. Those rescues did not occur by chance; they were the 
direct result of the dedication of our personnel, the extensive 
training that is provided to them, the specialized equipment 
cache and logistical support package that the Task Forces 
deploy with, the framework of the National US&R system that 
enables them to operate in a uniform and efficient manner, and 
the unwavering support of the sponsoring agencies and 
participating agencies that furnish all of the nearly 6,000 
members of our national system.
    Based on our lessons learned and reinforced during the 
response to the earthquake in Haiti, I would respectfully ask 
that the Committee consider the continued support of the FEMA 
US&R National Response System.
    Thank you, Chairwoman Norton, Ranking Member Diaz-Balart, 
and distinguished members, and Chairman Oberstar for the 
opportunity to testify today.
    Ms. Norton. Thank you very much, Mr. Endrikat.
    We are going to hear next from Mr. Dave Downey from Florida 
Task Force 1.
    I am afraid we are going to have a vote shortly. If so, I 
will recess the hearing, if we don't get to hear from everybody 
or to ask questions, and ask members to come back.
    Mr. Downey?
    Mr. Downey. Thank you, Chairwoman Norton.
    Ms. Norton. This is very important testimony. These are the 
people who have been there, done that, so I don't want to give 
any short shrift to these witnesses.
    Thank you, Mr. Downey.
    Mr. Downey. Thank you. Thank you, Chairwoman Norton, 
Ranking Member Diaz-Balart, Chairman Oberstar, and 
distinguished members of the Subcommittee for inviting me to be 
here today. Again, my name is Dave Downey. I currently serve as 
a Division Chief with Miami-Dade County Fire Rescue in South 
Florida, and also as a Task Force Leader for Florida Task Force 
1.
    My written testimony and comments today are from my 
perspective as a Task Force Leader who led an 80-person search 
and rescue team to Haiti. I will discuss my direct observations 
from the mission, with the goal of identifying lessons learned 
that can be applied here at home.
    Shortly after the news that a magnitude 7.0 earthquake had 
struck the country of Haiti, Florida Task Force 1 alerted and 
rostered a search and rescue team, even though our task force 
is not currently designated for international response. Our 
close proximity to the island, coupled with our past 
international response and training experience, necessitated us 
being prepared if called upon. Based on the preliminary 
reports, it was clear that this would be a catastrophic event 
requiring tremendous amounts of international aid.
    After receiving our activation orders, we began what would 
turn out to be a day-long effort trying to secure 
transportation to move the 80-person task force and 62,000 
pounds of rescue equipment to Haiti. Ultimately, we would be 
transported by a contracted carrier, one for personnel and a 
different carrier for our equipment.
    While the plane carrying the personnel landed without delay 
in Port-au-Prince the following morning, the two planes 
carrying our equipment cache were delayed and then diverted to 
Santo Domingo. Ultimately, one plane landed with primarily base 
camp supplies the next morning, almost 24 hours after we got 
there, and the other plane with our rescue cache, the equipment 
most essential to this mission, didn't arrive until another 36 
hours later.
    Pre-identification of specific airframes and providers 
capable of moving US&R assets rapidly and efficiently is 
essential. Additionally, when airports are inundated with a 
myriad of flights, priority must be given in the early days to 
search and rescue.
    Once on the scene, the size of this disaster was 
overwhelming. My first thought was, where do we begin. Our 
priorities were already established. We first were directed to 
look at hospitals, universities and schools, multi-story 
buildings, and any other large structures. While the priorities 
seemed logical, the mapping and sector assignments were 
woefully inadequate. The maps that we used for the first two 
days were, as my colleague described, tourist maps like this 
one provided by the embassy. These maps lacked the sufficient 
detail, such as street names, and the locations of these 
significant structures we were supposed to prioritize.
    Search sectors were developed along geographical borders 
rather than like-sized grids. This created various shapes and 
sizes for each sector, and with the lack of adequate maps, 
sector boundaries were difficult to determine.
    Again, I have included in my testimony some examples of the 
mapping that we were using actually the first week.
    It is my recommendation that the capabilities of the 
National Geo-Spatial Intelligence Agency be incorporated early 
on in disaster response. Prescripted mapping packages must be 
identified and adherence to the National Grid Reference System 
must be implemented for all search and rescue operations to 
ensure the priority areas are identified and grid searches are 
accomplished in the most expeditious fashion possible.
    Transportation was a daily challenge for search and rescue 
teams. This was probably the greatest struggle we had in 
performing our job. Every day the task forces competed for the 
use of a small contingent of transport vehicles. We should not 
expect a local infrastructure that is already devastated by a 
disaster to supply transportation. If a task force is deployed 
without their transportation assets, as was this case, then 
dedicated onsite transportation has to be secured.
    During collapse search and rescue, besides the type of 
construction we are confronted with, our greatest enemy is 
time. To be successful, we must be able to get the right 
resources to the right place as quickly as possible in order to 
save as many lives as possible. To this end, task forces must 
ensure operational readiness, and the implementation of pre-
established transportation assets is essential.
    An ongoing issue that is yet to be resolved is the security 
for task forces operating in a disaster site. During this 
response, our personnel operated every day without any 
protection. While plans were made to evacuate an area if a 
confrontation developed, the reality was that, based on the 
damage and the topography and the lack of familiarity with the 
area, it would have been difficult to actually retreat.
    Let me conclude by saying that this mission wasn't without 
success. The efforts of the six US&R task forces from the 
United States, coupled with the other 40 teams from around the 
globe resulted in the largest number of survivors rescued in 
history, and we should all be proud of this achievement. I was 
pleased to see that the years of work put into developing our 
equipment caches and training has paid off.
    This year marks the 25th anniversary of the Mexico City 
earthquake and the first organized US&R response to such a 
disaster from the United States. Since that time, the United 
States has developed a robust national capability that today we 
know has incorporated the equipment, the training, and, most 
importantly, personnel to be successful. This capability is 
built on a foundation supported by the 28 sponsoring agencies, 
countless participating agencies and affiliated personnel that 
collectively provide the 6,000 member ready reserve that we 
know as the National US&R Response System.
    These agencies support this national system sometimes at 
the expense of local service, and this can't continue. 
Supportive legislation as defined in Chairman Oberstar's House 
Resolution 3377, coupled with adequate funding, is necessary 
for the National US&R program to sustain current capabilities, 
as well as to explore new opportunities.
    Again, I would like to thank the Subcommittee for the 
privilege of appearing before you today. I would be happy to 
answer any questions you may have.
    Ms. Norton. Thank you, Mr. Downey.
    Steven Cover, Fire Chief of the Virginia Beach Fire 
Department, Virginia Task Force 2.
    Mr. Cover. Thank you, Madam Chairwoman Holmes Norton, 
Ranking Member Diaz-Balart, full Chair Mr. Oberstar, and 
distinguished Committee members. It is my pleasure and honor to 
appear before you today.
    As an introduction, I am Steve Cover, and I currently serve 
as the Fire Chief for the City of Virginia Beach Fire 
Department, and, as such, I am the Sponsoring Agency Chief for 
Virginia Task Force 2, one of the 28 Urban Search and Rescue 
teams. I have also been asked to serve the FEMA Urban Search 
and Rescue Program as one of three Sponsoring Agency Chief 
Representatives, representing the nine Eastern Region Team.
    I would also like to recognize Fire Chief Robert Khan from 
the Phoenix Fire Department, who represents the Central 
Division, and Fire Chief Raymond Jones, from Sacramento Fire, 
for both of their leadership along with me.
    I have served in various capacities within the Urban Search 
and Rescue program since its inception.
    I am speaking to you today as a Sponsoring Agency Chief 
and, as such, I want you to know how proud I am of this 
program. The men and women who serve our Nation through the 
Urban Search and Rescue Program are committed, competent 
professionals who care deeply for both the program and the 
citizens they serve. Every team member is a professional 
provider in his or her locale, whether a firefighter, a medical 
doctor, or a trained search dog handler. These professionals 
respond to natural disasters with the same skill sets that they 
apply every day in their home towns. The concept is fairly 
simple: utilization of an all-hazards approach to incident 
mitigation utilizing special training, special equipment, and 
special people.
    The Urban Search and Rescue System is part of a tiered 
approach to managing disasters. It has the capability to 
augment local and State resources with federally sponsored 
teams that can readily plug into operations at the local level 
following the National Incident Management System. These Urban 
Search and Rescue Teams, made up of local providers who are on 
their local payrolls until activated, are far less expensive to 
maintain than a resource that may otherwise be fully funded by 
the Federal Government.
    The 28 Urban Search and Rescue Teams and their localities 
benefit from the training, equipment, and experience that comes 
from being part of this program. Just as the system members 
apply the skills learned at home to national disasters, they 
apply the lessons learned while on Federal missions in their 
local jurisdictions. The same search and rescue methods that 
were utilized and refined during the 9/11, Hurricane Katrina, 
and Haiti responses are performed throughout America daily by 
our members.
    The recent Haiti response, just as FEMA Urban Search and 
Rescue deployments in the past, once again proved the value of 
the program to the people impacted by this disaster. The four 
FEMA Urban Search and Rescue Teams--Florida Task Force 1, 
Florida Task Force 2, New York Task Force 1, and Virginia Task 
Force 2--along with the two USAID teams--USA 1 and USA 2--which 
are also members of our Urban Search and Rescue System, as 
Virginia Task Force 1 and California Task Force 2, performed 
some 47 live rescues while in Haiti. Many of the international 
teams did not have the heaving breaking and breaching 
capabilities that our teams did. This, coupled with a rapid 
deployment of our teams, made a difference.
    Our training, equipment, and processes worked and lives 
were saved as a result. The deployed teams knew each other and 
operated from a common operating platform grounded in training, 
similar equipment, and common policies. Several of the 
remaining 28 Urban Search and Rescue Teams were on standby at 
their points of departure, waiting to deploy as augmentation or 
in relief of the first teams that were deployed.
    The Urban Search and Rescue Program Office also worked 
diligently to coordinate the deployment of the teams and to 
ensure the practices applied to a domestic response would also 
be applied here. As a Sponsoring Agency Chief of one of the 
deployed teams, it was nice to know that support was there and 
spelled out in the activation orders. As with every deployment, 
there are areas for improvement, and we feel confident that 
after-action issues will be addressed by not only the Urban 
Search and Rescue Teams, but the Program Office as well.
    I would like to thank Mr. Carwile, Mr. Fenton, and the 
entire Urban Search and Rescue Program staff for their efforts 
and support. Mr. Carwile has clearly made an effort to make 
himself and his staff available to the Sponsoring Agency Chiefs 
Representatives and the Task Force Leaders Representatives. 
This increased spirit of cooperation will go a long way toward 
making the program even better. I feel that issues identified 
with the Haiti response, ranging from transportation, re-
supply, and force protection, will be refined and improved 
upon. This will ensure our teams are mobilized and transported 
to the disaster site within the window of opportunity for 
successful search and rescue operations, whether in a domestic 
or foreign theater.
    From a Sponsoring Agency Chief's perspective, there are 
legal and financial liabilities that are of concern. We want to 
send the best trained teams to assist others while assuring our 
localities are not exposed. In this economic climate, expenses 
that have been borne by Sponsoring Agencies in the past are 
being more closely scrutinized by our localities.
    Many of the Sponsoring Agencies are facing staffing cuts 
that have not been seen in 30 years. We are continually being 
asked to do more with less in our municipalities. It is 
increasingly more difficult to place a fire company out of 
service for Urban Search and Rescue training or equipment 
maintenance when we do not have enough resources to protect our 
community to the levels we have in the past.
    We feel it important for this program to have recurring 
funding in order to support training and exercise, acquisition 
and maintenance of equipment and medical monitoring for our 
responders. Workers compensation and liability protection for 
our personnel is also very important. God forbid a member of 
our Task Forces is injured or killed while deployed on a 
mission. We want the proper protections in place for that 
member and their family. Additionally, we want to ensure our 
deployed members have proper liability protections in place and 
their jobs are secure.
    Ms. Norton. Mr. Cover, could you summarize, with this vote 
on, please?
    Mr. Cover. Yes, ma'am.
    In conclusion, we are willing to explain the value of the 
Urban Search and Rescue Program to their communities for the 
reasons I have outlined, and your support through House 
Resolution 3377 will assist in providing the needed funding and 
legal sufficiency for this worthwhile program. We stand ready 
to assist in making this proven system better now and into the 
future.
    Thank you again for your continued support.
    Ms. Norton. Thank you very much, Mr. Cover.
    Assistant Chief Kramer, Orange County, Fire Authority, we 
are going to let you begin according to the length of your 
testimony. We will try to hear your testimony. Even I have to 
vote on this one; I vote in the Committee of the whole. So we 
are asking members, to the extent that they can, please come 
back. But would you summarize your testimony, and we will try 
to hear you out?
    Mr. Kramer. Thank you, Madam Chairwoman Norton, Ranking 
Member Diaz-Balart, and distinguished members of this 
Subcommittee. My name is Mark Kramer. I am the Operations Chief 
for the Orange County Fire Authority, one of California's 
largest all-risk fire service agencies, as well as a Sponsoring 
Agency Chief for California Task Force 5.
    As a professional firefighter for the last 31 years, I have 
been involved in the Urban Search and Rescue Program since its 
inception in the early 1990s. I am here today to speak on 
behalf of the California Task Force 5, the nine task forces in 
the Western Region and the request of the US&R system. As a 
sponsoring agency, the Orange County Fire Authority is proud to 
be associated with the 27 other teams comprising the National 
Urban Search and Rescue Response Program.
    As one of the original US&R Teams, we have been this 
program evolve from responding to natural disasters, such as 
earthquakes and hurricanes, to all hazard mitigation response. 
Your US&R Program has been able to adapt primarily due to its 
28 groups of professional first responders from across the 
Country who work together seamlessly to address the needs of 
this great Nation. Regardless of the cost, we respond with the 
intent to mitigate the impact and the consequences of the 
event.
    Last month, California Task Force 5 was one of the US&R 
Task Forces activated but not deployed to Haiti. Although 
disheartening for the Task Force, we understood the magnitude 
of this mission and we will be ready to ship out or to stand 
down as required.
    The quick response as a result of preparation, training, 
and dedication of our personnel, along with support from 
Federal, State, and local government. I strongly believe that 
without this support the Urban Search and Rescue Program would 
not exist and could not exist as it does today. However, we are 
facing fundamental challenges that need to be addressed if we 
are to continue to be the Federal's first responders.
    There are difficult financial times. We would like you to 
consider the cost to the sponsoring agencies and their local 
taxpayers, and what the impact of the civilian professional 
personnel that make up these task forces.
    I would like to address the cost of the program.
    On January 31st, 2006, FEMA Urban Search and Rescue Program 
Office provided an overview of their report to Congress on the 
status of the Urban Search and Rescue Program. Based on this 
report to Congress, the average cost to maintain a national 
task force is approximately $1.7 million. In contrast, the 
actual project funding for that year was approximately 
$600,000, leaving the balance of $1 million for the sponsoring 
agency to incur.
    Orange County Fire Authority subsidizes this program in 
many ways, such as the allocation of overtime funds, the 
allocation of workload, insurance, and maintenance of vehicles. 
Our finance section estimated that the cost of the Fire 
Authority to sponsor this program is over $1.5 million.
    We believe that the funding of $52 million allocated in 
House Resolution 3377 would more accurately balance the 
partnership between the Federal and local governments. H.R. 
3377 also addresses three fundamental flaws within our system 
that affect our sponsoring agencies, our professional personnel 
with licenses, and those not normally employed by government 
agencies. Therefore, we are very much in favor of this bill. 
These three fundamental flaws are workman compensation, 
protection of professional licenses, and re-employment rights.
    Workman compensation varies between States. So does the 
cost to the sponsoring agency if a task force member is injured 
during the deployment. If a task force member's agency's 
worker's compensation is greater than the Federal Government's 
protection, the sponsoring agency or participating agency is 
required to make up their difference. This not only becomes a 
financial burden to the local governments, but impacts the 
individual task force members.
    The second item. Several members essential to the mission 
of the task force are required to have professional licenses. 
These licenses are not protected from tort liability while 
performing in accordance with the task force mission. Under the 
current system, each is risking their livelihood with every 
response.
    The last issue is re-employment rights. This is the re-
employment rights of our civilian task force members. As a 
program manager during Hurricane Katrina, I was shocked when 
one of my heavy riggers, who was deployed to Louisiana, gave 
his heart and soul to the response, came home and was 
terminated by his employer. We need the same protection and 
safeguards that are afforded under USERRA and the task force 
members.
    In conclusion, the sponsoring agencies urgently request 
that the Federal Government codify this important national 
response program, in doing so, provide the necessary 
protections, adequate reoccurring funding by sponsoring and 
passing H.R. 3377. In 22 days, I will be retiring after 31 
years as a professional firefighter. It has been my honor to 
serve the public and the Nation, but after my retirement I will 
probably not be involved at this level. However, it is still 
important to me, although on a selfish level, that the members 
of this great system are provided with the protections that 
they deserve, as my son, Kyle, is a member of Nevada Task Force 
1.
    Thank you.
    Ms. Norton. Thank you very much, Mr. Kramer. I certainly 
hope you will be involved, as all of you are involved, as we 
have heard incredibly important expertise from all of you. You 
are really the highlight of this testimony, testimony from 
people who have been on the ground in the United States and in 
other countries, so I will ask you to excuse us for a few 
minutes.
    There are five votes, maybe more, about that, but it could 
take a half hour or even maybe 45 minutes. But we do not intend 
to close this hearing without giving members an opportunity to 
ask you questions not only for the record, but so that we can 
use your answers for some of the very issues you have raised 
with respect to the reauthorization of the urban rescue bill 
now going to the House floor.
    We will return. The hearing is now in recess.
    [Recess.]
    Ms. Norton. I apologize again for the interruption for 
votes. I am looking at what looks to be--I am asking perhaps 
that it be put up. I am looking at a map or some maps of Port-
au-Prince, except they are not tourist maps of the kind that 
you would expect the State Department to have; they provided by 
National Geo-Spatial Agency. I understand FEMA--it certainly 
states--uses Spatial Agency and they instantly get this kind of 
material. Now, one wonders how you were able to operate in 
Haiti without maps like this, which show not what the street 
is. This is what a tourist needs. You need to know where the 
major roads intersect so that you can get around.
    This far more technical--and one is up--which you would 
understand, but I would not--was apparently not available to 
you when our urban rescue teams first got there. Could I ask 
how did you know what to do? Or was the collapse so 
extraordinary that you just went where you could see with the 
naked eye?
    Mr. Downey. If you could put the other set of slide sup. 
Again--the other set. And you have that in my testimony.
    Ms. Norton. That is what, the ordinary map?
    Mr. Downey. Well, that was actually what was provided to us 
by the----
    Ms. Norton. State Department.
    Mr. Downey. Well, this was actually provided to us by the 
United Nations, the coordinating team that my colleague spoke 
of. They divided--these heavy black lines were what they made 
up the sectors, and then those big white dots were supposedly 
the areas of interest that we had to focus on.
    Next slide, please.
    This is what we had to operate off of. We had to take the 
tourist map----
    Ms. Norton. This is what you initially had, this map?
    Mr. Downey. Yes, for the first five to seven days.
    Ms. Norton. Five to seven days you were working off this 
map?
    Mr. Downey. That is correct. Yes, ma'am. We would take that 
map and then transpose the sectors onto that map, and then 
utilize. Fortunately, with handheld GPS units, we were able to 
at least fix our positions and, once we had internet access, we 
were able to use, quite honestly, Google Earth and use Google 
Earth and our GPS units to help fix the locations where we were 
working. So it was a very rudimentary method, but, quite 
frankly, the only thing we had available to us.
    Ms. Norton. But you are used to having National Geo-Spatial 
Agency maps. This really goes to the question of who is in 
charge. Now, USAID, of course, gave you all USAID usually uses. 
Speaking as experts in emergency management, with some 
knowledge of what happened in Katrina, even given the 
extraordinary efforts, for which all applaud, of USAID and 
FEMA, would it have been easier to have had a central command 
already familiar with the usual maps used stateside, so that 
you would have those maps before five days, you were there five 
days in the country?
    Mr. Downey. Absolutely. In fact, while there I was 
reflecting on my response to Katrina. I arrived in New Orleans 
the day after the storm with our team, and we, quite frankly, 
were using maps that we obtained from service stations, gas 
stations, as our original search and rescue maps in the early 
days, and that was when we were first made aware of the 
capability of the National Geo-Spatial Intelligence Agency.
    Ms. Norton. So you used the spatial agency, Spatial 
Intelligence Agency for the first time in Katrina?
    Mr. Downey. We used that in a few days following Katrina 
and we have used it successfully in other responses since 
Katrina. It felt as though I was going back to 2005 when I 
looked at the type of mapping that we were forced to use when 
we got to Haiti. I knew we had better technology; I knew it was 
there; and we just didn't have it with us there in Haiti.
    Ms. Norton. I ask this question because I am trying to 
avoid duplication of effort. When government has a special 
intelligence agency who has the maps, FEMA is more likely to 
know about the maps. We want to know--FEMA is on the ground. 
USAID, a heroic agency--I mean, it is overseas in the worst 
circumstances--does not have access to these or doesn't usually 
use them. I see duplication of effort and I see unnecessary 
duplication.
    Who would be in charge was a source of great consternation 
to this Subcommittee, and we had some trouble getting Homeland 
Security to understand that having somebody from Homeland 
Security and having somebody from FEMA produced confusion on 
the ground. Who really was in charge? And it took both 
Committees working to try to get some clarity on that. I would 
not like to see it repeated here. Nobody cares except somebody 
who knows how to do it best. We just want to make sure that we 
understand on the record.
    I would like to know about the heavy equipment. I am having 
difficulty understanding how you were able to move around Haiti 
at all. You took some heavy equipment, I take it, with you. 
What kinds and did you leave it there?
    Mr. Downey. Our standard equipment cache has everything 
from the technical search equipment, such as search cameras, 
listening devices, to hand tools for breaching and breaking, 
all the way up to heavy hydraulic machinery that can break 
heavy reinforced concrete structures.
    Ms. Norton. So is that like a truck?
    Mr. Downey. It is not a truck. It is all packaged in 
containers and palletized so that it gives us the most 
flexibility, whether we have to load it in a truck, load it in 
an airplane. We are able to configure the equipment cache as 
best we can depending on the transportation.
    Ms. Norton. How did you get from one point to another point 
with that heavy equipment?
    Mr. Downey. Well, what we ended up doing in Haiti was 
organizing most of our rescue squads as recognizance squads 
with just some basic search and rescue equipment. Once they 
encountered a possibility of a victim, we would follow it with 
a truck that had the breaching and breaking capabilities, the 
heavier tools.
    Ms. Norton. Where did you get the truck?
    Mr. Downey. We had a pool of vehicles operating. There were 
four teams operating out of the U.S. Embassy. We had a pool of 
vehicles that were available to all four teams. The problem was 
we were all competing for the same pieces of equipment. There 
were only two flatbed trucks that could carry some of this 
equipment, so, for instance, if California or Florida 2 was 
working on another rescue site, we would have to recover that 
truck, have it come back to the embassy so that we could load 
our cache and go out to the new rescue site. So we had no 
dedicated--my task or any of the other task forces had no 
dedicated transportation assets that I knew I could use to move 
my team to the rescue sites.
    Ms. Norton. Was any priority given to the fact that you 
were on rescue and recovery, which means whatever you have to 
do, you do it now or it probably doesn't much matter?
    Mr. Downey. Absolutely.
    Ms. Norton. Were you prioritized for use among other uses 
that had to be done, or was that just impossible given the many 
missions that came together at one time?
    Mr. Downey. I think the latter part of your statement. 
There were so many missions coming together. There was such a 
need to get all these recognizance teams out that we just 
didn't have enough vehicles.
    Ms. Norton. Were there helicopters in service from the 
United States in the very early days, I mean in the first week, 
for example?
    Mr. Downey. Absolutely. I would say within the first two 
days or so of our arrival there was a lot of military aircraft, 
helicopters.
    Ms. Norton. Did you use any of them? Were any of them 
useful to rescue and recovery?
    Mr. Downey. We used them one time for some aerial 
recognizance of the distance areas to look at. But the fact of 
the matter is the topography of Port-au-Prince and the amount 
of devastation trying to do any type of aerial recognizance was 
impossible by helicopter. And if we found something, it would 
have been impossible to land the helicopter in the area. I 
mean, over-the-road transportation was by far, although 
stressful trying to get through the traffic, especially in the 
daytime, was the only way to move around in the city.
    Ms. Norton. Well, urban rescue teams are the quintessence 
of flexibility, of knowing how to adapt on the ground. That is 
why we have such enormous respect to you. I would like to know 
from each of you, particularly since I would venture to guess 
you had the toughest sort of disaster in Haiti. You had a 
country already without the basics; you had the worst disaster. 
In fact, if you look at California, California has had 
earthquakes of that kind and it does not fall down like that.
    I would like to know what lessons, what you found most 
significant that could be transferred here. I mean, assuming, 
for example--and California, by the way, is not the only State 
which has fault lines; Tennessee. We have fault lines all over 
the United States. And, of course, I am not referring only to 
earthquakes. But it is not difficult to envision a country 
which is prone to literally every kind of disaster. It is not 
difficult to conceive of entire counties, which would be the 
functional equivalent of this Country going down, where nothing 
was left up. The fact is we don't often encounter that. But we 
didn't often encounter Katrina, and we were not prepared for 
it.
    So looking back, those of you who went and those of you who 
know about Haiti and understand what has happened there, what 
do you think most significantly transfers to disasters 
involving rescue in the United States, whether they are rescued 
from water, as in Katrina, from collapse, from roads that go 
out, bridges that go out and you can't get from here to there, 
but the hospitals are over there? If you give us some thought 
of how you might use what you understand from Haiti to train in 
the United States for similar disasters or disasters that are 
not similar.
    Mr. Endrikat. Madam Chairwoman, one of the things I spoke 
about early in my testimony was a tiered response and the 
ability for us to put highly technician level trained rescuers 
to work as soon as possible. And I think Chairman Oberstar 
mentioned the bridge collapse in Minnesota and he used that 
analogy, that highly trained people had exercised that within 
two years before that event and they were able to successfully 
engage at a technical level, coupled with the incident command 
structures that we have in a country. That is another important 
lesson learned, direct command and control of tactical 
operations is critical.
    Ms. Norton. That is a lesson learned in what respect? You 
didn't have quite the instant command that you have become used 
to in the United States.
    Mr. Endrikat. Correct.
    Ms. Norton. And you would benefit from that.
    Mr. Endrikat. Yes. In Haiti--Dave, what would be the right 
way to say this?--probably a little bit looser. In the United 
States there is definitely an organizational structure; there 
is definitely responsibilities; there is definitely 
accountability for field actions. We have Incident Command 
System forms, there are divisions, operational areas that are 
broken out and specific assignments given with reporting and 
documentation that follow that. On the international response 
in Haiti, that wasn't quite as evident.
    Dave, I will let you talk to that.
    Mr. Downey. Again, the big topics, the take-home topics I 
had, we have touched on it and I will stress again: 
transportation. Transportation was an issue for us in Katrina 
because we didn't have the boats. Transportation has been an 
issue for us in this Haiti response. In the----
    Ms. Norton. But that is an issue that you think could have 
been overcome with what?
    Mr. Downey. I think pre-established air transportation 
assets, either knowing what military entity or commercial 
carrier is going to provide the transportation; having 
dedicated over-the-road transportation. All of the 28 teams 
were given money back in 2003 to purchase transportation for 
all of the equipment cache, you know, so we can move up to 
1,200 miles across the U.S., but we haven't had any money to 
sustain those transportation assets. We still don't have our 
own----
    Ms. Norton. When things got bad enough in the United 
States, we recognized there was no way other way to do it. That 
is when the Coast Guard came in.
    Mr. Downey. I am sorry?
    Ms. Norton. During Katrina, when the usual agencies were 
not prepared to operate, the Coast Guard came in there.
    Mr. Downey. Absolutely.
    Ms. Norton. Some such agency that is not normally on the 
ground--we have all kinds of military and other agencies on the 
ground now--should simply be deployed so that you can do your 
job, rescue and recovery job.
    Mr. Downey. Absolutely. Absolutely.
    Ms. Norton. Mr. Cover?
    Mr. Cover. Thank you, Madam Chairwoman. Two areas, in 
addition to transportation, that concern me as a Sponsoring 
Agency Chief having a team deployed was re-supply of my 
personnel there, to make sure they had their basic needs met 
when----
    Ms. Norton. By that you mean that they ran out of certain 
supplies and it was difficult to get them supplies? Elaborate 
on that a bit, please.
    Mr. Cover. Okay. Our teams are self-sufficient when they go 
out the door. Certainly, we don't want to be a load on the 
exact folks that we are going to help, so our folks went out 
the door with five days worth of MREs and water. In checking 
back with my task force leader that was there, at one point re-
supply was an issue; they were not sure, with the airframes in 
and out of the country, whether those needs would be met.
    Certainly, to have 80 personnel deployed there, that was an 
issue for me. I wanted to make sure that we had that covered. 
And they did, they worked it out. They got with the USAID 
folks; I am sure the folks over at the embassy. My team was 
deployed to an area separate from Chief Downey's team. The 
Virginia 2 team and the New York team, as I understand it, were 
in a different area of the country, housed at the airport as 
their base of operations.
    So re-supply and making sure we have the basic needs met is 
something that has been an issue in the past as well, and we 
want to make sure that that is a lesson learned that we improve 
on.
    Another area of concern for me was force protection. When 
these folks come in to an area that has been just absolutely 
decimated, those people are hurting and after a certain period 
of time, when they don't get their basic needs met, there is 
consternation that can occur and I worry about that, having 
folks over there that have supplies, have resources. So I want 
to make sure that they are protected not only while they are 
operating, but when they are there in their down time as well.
    Ms. Norton. Thank you, Mr. Cover.
    Mr. Kramer?
    Mr. Kramer. Thank you, Madam Chairwoman. The only thing 
that I would really like to add to this, because you brought in 
Katrina, is the ability for us to do water rescue. That is one 
of the things that the Secretary from California mentioned when 
he was talking, that we have swift water capability. All the 
task forces in California have that capability, and under EMAC 
they actually did respond. We responded, I responded, my swift 
water team, to Katrina within the first 24 hours.
    Ms. Norton. That means emergency workers who are specially 
trained to do water rescue?
    Mr. Kramer. Absolutely.
    Ms. Norton. Including getting in the water if necessary?
    Mr. Kramer. Absolutely. What we call live bait or the 
rescuers will get in the water with the victim and then pull 
them out. We have Zodiac type boats that we bring along when we 
take the swift water teams with us. That is one aspect of the 
task force that not all task forces enjoy that aspect. Because 
the State of California wanted us to have that resource, they 
trained us and made us to that level.
    Ms. Norton. I think that maybe one of the bases upon task 
forces are deployed, if there were a task force that had that 
capability, since we have 28--and I am so proud of having so 
many--then I am sure what you are saying would come into 
effect. We will have to see how many others have that.
    Mr. Kramer. I know that other task forces may be trained at 
that level. In fact, I am pretty sure that they are. It is just 
that we haven't been given the nod to actually deploy that type 
of resource.
    Ms. Norton. Mr. Diaz-Balart?
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    And, again, thank you, gentlemen for this whole thing about 
democracy gets in the way, right? But thank you for your 
patience.
    Thank you, Madam Chairwoman.
    We have heard, I think, some really, really, really good 
specific recommendations. Let me just kind of ask a couple 
questions, though.
    Katrina. Some of the issues that we have heard today that 
are kind of no-brainers for you all, but those of us that are 
not on the field don't necessarily think about it all the time. 
I was aware of the job that you all did in Katrina, but I have 
to admit to you that I never asked myself the question how did 
they get there. Now, how did you get there from different parts 
of the Country? I am assuming that, from Florida, maybe you 
drove yourself there, but from California? So how did you all 
get there with all your assets?
    Mr. Endrikat. Like Dave was describing to you, the ground 
transportation package that we have is the way the majority of 
the task forces traveled, and there was two distinct 
operational theaters in Katrina, Mississippi and New Orleans. I 
was assigned as the Operations Chief for Mississippi. We were 
flown in in advance of the storm hitting, flown in to a central 
location, then obtained vehicles and actually weathered the 
storm.
    Mr. Diaz-Balart. Who flew you in?
    Mr. Endrikat. FEMA.
    Mr. Diaz-Balart. FEMA did.
    Mr. Endrikat. Yes, through national travel.
    Mr. Diaz-Balart. Okay.
    Mr. Endrikat. So the Incident Support Team historically 
travels that way, sir, and the task forces travel usually by 
our ground transportation packages.
    Mr. Diaz-Balart. Okay. Now, domestically, that is the way 
it works. Now, it gets a little bit more complicated now when 
you travel internationally. Historically, whether it is in 
Mexico City or whatever, how has that been done? I mean, is it 
you are on your own, like some of you all were now, or does DOD 
take care of it, or how does it usually work?
    Mr. Downey. Well, on this particular response, we were 
working directly with USAID in Washington, who was tasked with 
arranging the transportation. As I stated in testimony, it 
pretty much took all of that day, after we were activated, to 
figure out how we were going to get down there.
    Our equipment cache, our task force is housed at Homestead 
Air Reserve Base, so my initial assumption was that we would go 
out military, out of Homestead Air Reserve Base. We have done 
that before with responses to Turkey and the earthquakes in 
Turkey. There were aircraft there, but never had them dedicated 
to the movement of our team.
    Later in the day, a contract carrier was arranged through 
AID in Washington and we moved the entire cache up to Miami 
International Airport for movement out of the airport. So some 
of the task forces, California 2, Los Angeles, came by military 
airlift. Fairfax came by the same method we did, which was a 
contract carrier. Florida 2 came on U.S. Coast Guard. So it 
was----
    Mr. Diaz-Balart. Whatever could be found.
    Mr. Downey. Yes, exactly. Nothing had a dedicated--we 
didn't have a dedicated airframe that we knew our cache would 
fit on, we knew our personnel would fit and be able to move it, 
ideally, with one aircraft.
    Mr. Diaz-Balart. Now, when you were pre-positioned, I 
guess, before Katrina, you were flown in there by FEMA, was 
that charter airplanes?
    Mr. Endrikat. It is a standard commercial carrier. They 
will just book flights on a priority basis for the Incident 
Support Team members.
    Mr. Diaz-Balart. Now, one of the things that was very 
difficult and was at first--we had a briefing when the Vice 
President was in South Florida--was the fact that--I guess 
there are only about 46 airplanes that can be handled a day 
landing in Port-au-Prince, out of which I think something like, 
I don't know, less than 20 percent were from the U.S., and 
those decisions were being made by the Haitian government--who 
was landing, who wasn't--which just adds to the problem here.
    But it would seem to me that who does have the capability 
of doing that, particularly internationally, is the Department 
of Defense. But there isn't a pre-existing compact, whatever, 
with DOD to have under specific cases, to have assets 
available, correct?
    Mr. Endrikat. I think in the case of the two USAID teams 
that have the agreement with USAID and OFTA, there might be 
more of a priority, but as far as the FEMA use of our system, 
this deployment was way outside of our normal range of 
operations and we don't have anything prescripted mission-wise.
    Mr. Diaz-Balart. That would seem to me, Madam Chairman, 
that is one of the things that I know you have talked about 
that we need to look at to see how we can get a better handle 
on that and making sure that we can have something--yes, sir.
    Mr. Kramer. If I could add. During 9/11 we did fly, 
California did fly military aircraft, obviously, because 
everything else was grounded.
    Mr. Diaz-Balart. Right.
    Mr. Kramer. During Katrina we did fly our swift water teams 
military, and then our full task force drove. So our caches 
right now, all of our equipment are configured so we can either 
fly military or fly commercial or go by ground. We have 
military pallets that everything is loaded on.
    Mr. Diaz-Balart. Right.
    Mr. Kramer. We have all the plans for each type of 
airframe.
    Mr. Diaz-Balart. You all are ready to go.
    Mr. Kramer. We are ready.
    Mr. Diaz-Balart. Right. The issue is that there doesn't 
seem to be a set pre-established plan for how, in certain 
conditions--because I would imagine that in most cases, God 
willing, that you can drive there or you can hire USAID--and 
for domestic FEMA can hire some planes. But if it is a big one, 
it would seem to me that, under certain circumstances, there 
should be some pre-established norms where, if Department of 
Defense assets are required, that that is available; and there 
doesn't seem to be that at this stage.
    Mr. Kramer. No, there isn't, and we do have local 
agreements and we train routinely with Ardner Air Force Reserve 
Base to actually be able to fly military, but there aren't the 
agreements that say that in the event you get a military 
aircraft.
    Mr. Diaz-Balart. Right. Right. So that is something I think 
we need to look at and see if we can get a handle on. And I 
know that the Chairwoman has been looking at that and will 
hopefully be able to come up with some specifics.
    Now, you all talked about a lot of issues and I took some 
notes, so I am not going to go through them all, but I do want 
to just hit on a couple of other ones. On the re-supply issue, 
domestically, again, it is easier, I would assume. 
Internationally, in a case like Haiti, where you had no port to 
speak of, because that was destroyed, and then we had, in 
essence, really one airport that was overtaxed, at best, it 
would seem to me that we have to have some sort of pre-
arranged--the same kind of thing that we are talking about for 
initial equipment to have a re-supply chain ready to go with 
assets to be able to get the stuff in there, correct?
    Mr. Cover. Yes, sir, I agree. I think the bottleneck was 
the fact that the airport was small; there were many, many 
missions, from humanitarian aid to search and rescue that were 
competing missions. I think we spoke to that. The ports were 
damaged to a point initially that it is my understanding we 
couldn't utilize that method.
    Mr. Diaz-Balart. Right.
    Mr. Cover. So having these plans in place will certainly be 
helpful.
    Mr. Diaz-Balart. Because in the case of Haiti, right, there 
was, frankly, one airport that was overburdened and the port 
was not available, and then eventually DOD did start putting 
ships off and then helicopters filling things in. Then, 
obviously, you have to compete with everything else, and we 
understand that.
    So as you all said, this is not criticism, this is just 
there seems to be--these are--Haiti was horrible. It is not 
necessarily, unfortunately, the worst case scenario. You always 
have to plan for a worse case scenario, if that is possible. 
Hopefully, it never will be possible, as horrible as that was.
    So one of the things that we need to think about is who has 
those assets. DOD has the assets, and that includes--obviously, 
when I talk about DOD, I am also including as a part of that 
the Coast Guard, which is kind of a separate but--and it seems 
to me, though, that there needs to be a pre--you know, 
basically some compacts are already established beforehand that 
if the worst case scenario happens and if you need assets, that 
you already have that so that USAID and others don't have to 
start scrambling to figure out how we are going to get you 
there. Does that not sound like something that makes sense?
    Mr. Cover. It does exactly, yes, sir. And I think part of 
the after-action process is going to be to drill in to some of 
those issues. I will tell you, in my mind, the reason that it 
worked is the resiliency of our people and their ability, 
whether it is maps or whether it is trying to figure out how to 
get re-supplied. These men and women are very capable, 
competent people that flex and apply their skill sets in an 
austere environment, and that is what makes it work.
    Mr. Diaz-Balart. Sure. And, again, I am obviously saying 
what you all are saying. I just want to make sure that I 
understood it.
    Another issue that you all talked about was security, force 
protection. Now, obviously, when you go domestically, you 
assume, I would assume, that it is the local law enforcement 
that provides the--or how does that happen? I know that in 
Katrina we had some issues there, but--so how does that work 
domestically?
    Mr. Endrikat. Internally, in our program, there is a 
program directive generated by FEMA'S program office that 
assigns us force protection. Federal law enforcement officers 
are assigned to each Federal task force, theoretically and at 
the point of departure, all the way enroute and, when we get in 
theater, those needs are assessed and, dependent on the 
different options available to us, we could either use 
military, local, or Federal law enforcement officials. So since 
Katrina that has gotten much better as far as policy and 
procedure.
    Mr. Diaz-Balart. So domestically it has gotten--because we 
all saw, we saw the visuals of people getting shot, your folks 
getting shot at and with no protection. That has gotten better 
domestically. But obviously, again, when we are dealing with 
international, we are dealing with now a totally different 
animal as well. Are there arrangements, pre-arrangements with--
is it DOD again or embassies in different countries, whatever, 
to have a preset way to provide security?
    Mr. Downey. There were in Haiti United Nations Peacekeeping 
Forces there that the--and, again, as Chief Cover spoke of, 
there was almost two separate operations, there was the 
operations run out of the airport and there were the operations 
run out of the U.S. Embassy. At the airport they had the U.N. 
Peacekeeping folks that they would try to send out with the 
task forces. At the Embassy, we really didn't have those assets 
available to us. There were DOD assets, but it wasn't something 
that was on a consistent basis.
    And I can only speak for my team that, in the 12 days we 
were there, we never operated with any security with us. 
Definitely something, as Chief Cover said, as the leader made 
me uncomfortable, but we tried to, as best we could, make sure 
our personnel were aware of surroundings, always posting a 
lookout. We were fortunate because three of our team members 
were Haitian-Americans, so we were able to communicate well and 
know the areas a little bit better than maybe some of the other 
teams. But I don't know if it is a very easy answer.
    Mr. Diaz-Balart. Well, but is there--to your knowledge, is 
there a preset--I am talking about now for foreign deployment. 
Is there a preset, I don't want to say standardized because 
this is not standardized stuff; every case is different. But is 
there a preset set of guidelines, rules, arrangements made so 
that, if you do deploy and you deploy in a place where--by the 
way, fortunately, there were 7,000 U.N. troops in Haiti before, 
which was obviously a huge help, even though a lot of those, as 
we know, got hit hard, but there were--but if you are deployed 
someplace else where that doesn't exist, to your knowledge, is 
there a preset way to--standardized way that you are going to 
have force protection?
    No, right? So that is something that we need to look at. I 
just want to make sure I understand how--what is there now, and 
right now, to your knowledge, that is just not something that 
is really dealt with, per se----
    Mr. Downey. That is correct.
    Mr. Diaz-Balart.--in a comprehensive way, at least.
    Mr. Downey. That is correct.
    Mr. Diaz-Balart. And, obviously, when you get there they 
deal with it because everybody understands it, but there is no 
preset way to do that.
    Mr. Downey. No. The best we can do, in my experience with 
other international deployments, is work with the embassy, the 
U.S. Embassy security officer to identify areas that have 
potential hostile areas. We did that here. We had no-go areas 
where task forces would say, you stay out of that sector 
because it is just not a safe area without any type of force 
protection; and that is really the best we could come up with. 
There isn't anything pre-established.
    Quite frankly, I am not sure what the answer is because one 
or two soldiers, when there is a crowd of three or four hundred 
people, I am not quite sure how much they are going to be able 
to provide for us. I go back to my roots as a firefighter. For 
the most part, everybody is happy to see us when we get there, 
and in the event things start to look like they are getting 
unsettled, we need to back out.
    Mr. Diaz-Balart. Except that if you don't have 
transportation, easier said than done. So in a case like what 
happened in Haiti, luckily, again, people were very happy to 
see you, but if it would have not been that case, things could 
have gotten pretty interesting.
    Mr. Downey. Absolutely.
    Mr. Diaz-Balart. Right.
    Lastly, Chief Kramer, I think it was you that mentioned 
about those that are civilians, and the fact that--did I hear 
you right, about the fact that people have lost their jobs when 
they come home? Is that correct?
    Mr. Kramer. That is correct. After Katrina, we had one of 
our heavy riggers who, when he got home, was told that he was 
no longer employed.
    Mr. Diaz-Balart. Because he had been gone for?
    Mr. Kramer. Because he had been gone for a couple weeks.
    Mr. Diaz-Balart. Right.
    Mr. Kramer. Much of our task force, a lot of the task 
force, obviously, are firefighters that deal with the rescue, 
but we have specialties within the task force that aren't 
necessarily firefighters; they are people that have other jobs. 
Some of our dog handlers have other jobs and we have physicians 
that may be working in the local emergency rooms; we have 
structural engineers that may have firms dealing with 
architecture and design and such. So if they are working for an 
employer, they are not protected if they go with us. We are 
lucky enough that we have people that are dedicated enough to 
go.
    Mr. Diaz-Balart. Thank you. Thank you, gentlemen.
    Madam Chairwoman, if I may--by the way, she puts up with 
me; she lets me go. So she is very generous with me, and thank 
you.
    Let me just, before I close, let me thank you all. But when 
I thank you all, I hope you understand that I am thanking you 
all and all of the men and women that you represent. Obviously, 
being from South Florida and living in a State that, 
unfortunately, is used to lots of storm events, I have seen 
what you all do. I have seen it in South Florida, I have seen 
it when we had, what was it, four hurricanes in one year?
    And then to see what you all do not only domestically, but 
internationally is something that all Americans are proud of 
and grateful for your service and your incredible sacrifices, 
the men and women that you all are representing here today. 
That is time away from your families and at great risk, at 
great, great risk. So just thank you. Thank you very much.
    Thank you, Madam Chairwoman.
    Ms. Norton. I would certainly like to be associated with 
your remarks, Mr. Diaz-Balart. We cannot say enough about these 
heroes stateside and abroad. And I know the people of Haiti 
feel that way because I saw a headline in The Washington Post 
that said, ``United States, Take Over''. Now, when is the last 
time you heard that? They are talking about you. They are 
talking about who they saw go in at considerable risk for 
themselves and get things done.
    Mr. Diaz-Balart has raised the question of force 
protection. Very courageously you said, Mr. Downey, well, we go 
in. We figure that a few guns here wouldn't be much protection 
anyway if the crowd got unruly. We are going to look at--we are 
aware that there were a great many troops down there. We also 
are aware we are in somebody else's country. And we want to 
understand exactly how to behave, no matter what the situation 
is.
    Now, as I understand it, the troops do know how to behave 
and they were told that they weren't law enforcement and they 
were not to engage unless they were at risk, and I take it to 
mean you at risk. In other words, you can't go shooting people 
who even are doing bad things, because you are not the Haitian 
police.
    I am concerned, though, that people who are risking their 
lives don't have at least that protection around them, and we 
will look at our legislation to see whether there could be at 
least some kind of memorandum of understanding that what 
apparently was the case anyway once they got on the ground, 
knowing when to shoot--they are well trained--whether those 
people could be on the ground earlier so that our emergency 
responders and rescue teams would not be at any risk, or would 
be at certainly less risk.
    The Ranking Member raises a very important point, about 
whether or not you are risking your own livelihood when you go 
either out of State or, for that matter, to a foreign country. 
Are you satisfied with what we have in the bill regarding re-
employment rights, such as they have in the National Guard and 
the Reserves, for these rescue team members as well?
    Mr. Kramer. Absolutely. Absolutely. The USERRA rights that 
are still afforded to National Guard, those are the same type 
of rights that we are looking for.
    Ms. Norton. And for people who have already lost their 
job--is there somebody who in this deployment has lost his job 
that you know of?
    Mr. Kramer. Not that I am aware of.
    Ms. Norton. That has happened before in the past?
    Mr. Kramer. And just as a note, the person who lost his job 
after Katrina, it wasn't long and he got another job. That 
profession is one that they needed people in, so he did well.
    Ms. Norton. I guess all you have to do is let the word go 
out that somebody who was down there trying to do good in 
Katrina lost their job, and people will come forward and say, I 
will hire you. But we don't want that to be necessary.
    I wish you would help us--because it will help us when we 
go to the Floor. The urban rescue teams are not being used in 
major disasters every day. Would you give us an idea of how the 
urban rescue teams are used, I take it locally, so that it can 
be understood what your real use in an ongoing basis amounts 
to, Haiti being rare and, for that matter, out of State being 
rare?
    Mr. Endrikat. Madam Chairwoman, an example of this would be 
that the skill sets that we require our rescue specialists to 
maintain can be applied at the local level every day.
    Ms. Norton. Go ahead, yes.
    Mr. Endrikat. In April of 1997, we had----
    Ms. Norton. And the jurisdiction?
    Mr. Endrikat. In Philadelphia. We had a significant fire in 
a boarding home. There was a subsequent structural collapse 
that buried seven firefighters. Without the training that we 
received through the FEMA US&R system, our specialized units 
there would never have been able to get them all out alive.
    So that is an example of the partnership or the type of 
partnership and the benefit of it when it comes to skill sets 
and a common operating platform and similar equipment, 
interoperability. And then you can take that a step further in 
that tiered response concept and do that at the regional level 
and the State level. The system has been used as a best 
practices model by all of the local, regional, and State assets 
that are developing this capability, so across the board it is 
very beneficial for a local jurisdiction to be involved with 
this system.
    Ms. Norton. This is so typical of what you see in any big 
city. Do any of the rest of you have examples of when the urban 
rescue teams have been used locally?
    Mr. Downey. Absolutely. Again, the skill sets either 
applied by our medical or surge personnel. Our canines, many of 
our search canines are owned and trained by fire department 
personnel, and we actually have used them multiple times in 
desolate areas of Miami-Dade County when there are car 
accidents and we have had victims that were thrown out of a 
vehicle, and it was our search canines that are trained to find 
live victims that found these people in the bush or away from 
the vehicle.
    We were used as a State asset--again, our search canines 
and our technical search capability--when a parking garage 
collapsed in Jacksonville and they were trying to recover three 
of the workers that they knew had been killed in this parking 
garage collapse. Again, it was the assets that were trained and 
utilized from the National Search and Rescue that were used at 
a State level.
    So it is occurring in all of the disciplines every day, and 
although we are not having earthquakes in Florida, we certainly 
have our share of storms, and the search techniques, the wide 
area search that our people learn about and are trained on for 
the national level and international are applied right at home. 
So it is a great opportunity to hone your skills at home and 
then, in the chance that you are going to deploy either 
domestically or internationally, even can refine those skills 
better.
    Ms. Norton. This is going to be very important for the 
public to understand how your Federal dollars are being used, 
and I recognize that there has been testimony that you could do 
with more money, that the grants go up to $1 million. You may 
spend $1.5 million, and that must come out of State funds or 
local funds.
    But what I think most people don't realize when they see a 
team from Fairfax or a team from California, I am afraid that 
they do not understand that is their own firefighter, their own 
EMS worker who has been trained by the Federal Government, who 
almost all the time is being used locally, even though the 
training and some of the material comes from the Federal 
Government. This joining of State and Federal resources is very 
unusual, where there is a grant, it comes from the Federal 
Government, but the fact is most of the time the people are 
used locally.
    And when people saw people going from Fairfax County, I am 
convinced that not until they saw people coming home, being 
greeted as if they were soldiers returning, that they 
understand that was their own firefighter, their own EMS 
worker. So we certainly will stress this as we go forward.
    Do either of the rest of you have examples you want to lay 
on the record?
    Mr. Cover. I will speak briefly. Just every day on the 
streets in many of our cities, in Virginia Beach, for example, 
hazardous materials technicians are utilizing many of the same 
monitoring and detection equipment on our streets daily for 
hazardous materials incidents, for example.
    Our team has been--our folks, on a regional basis, have 
been utilized in shipping and rail accidents. We responded 
across the State for a tornado, a Walmart collapse search was 
done in a tornado where our team was utilized. So, again, as 
these gentlemen have addressed, these skill sets, put together, 
while they may only be used, portions of them, on a daily basis 
in our towns and cities, when they all come together it is 
quite a fighting force, if you will.
    For example, this past weekend, in the city of Virginia 
Beach, we had a major snowstorm, a snowstorm that we haven't 
had in, say, 20 years. Many of the planning elements that we 
used to ready our city were--these skill sets were learned, the 
plans people that we used there in Virginia Beach were the same 
folks that will be working on plans on many of these 
deployments.
    Mr. Diaz-Balart. We don't have to deal with snowstorms in 
Miami, by the way.
    Ms. Norton. No snowstorms. You have everything else in 
Miami, Mr. Diaz-Balart.
    Mr. Kramer?
    Mr. Kramer. The only thing that I would like to add is 
pretty much echoing what they said, the skill sets are the 
same. And in California we, over the last couple years, had a 
couple major fires, and after the fires we have rainstorms. 
Rainstorms produce mud slides and debris flows. Debris flows 
cover houses, can cover areas, neighborhoods and such, so we 
use those same capabilities that we are trained for on the 
Urban Search and Rescue dealing with winter events.
    Ms. Norton. Yes, same personnel, same capabilities, most of 
the time applied stateside, right in your own local community. 
Very important for people to recognize. Little bit of money to 
get a whole lot of rescue and lives saved and injuries no 
longer taking place.
    I want to make sure we understand that we are taking care 
of the basic needs for tort and other liability. Do you know of 
any member of an urban rescue team who has been injured while 
being deployed? If that were to happen, who would take care--
what would be the liability? Who would take care of the 
liability, assuming there was liability, and who would take 
care of the team member's medical care?
    Mr. Kramer. We did have, in California, California Task 
Force 6 with Riverside--in fact, the Task Force Leader Program 
Manager sitting behind me at 9/11 he had some respiratory 
injuries that caused him to retire.
    We did have some issues with the workman's comp. As was 
stated earlier in my testimony, the workman's comp, we are 
covered whenever we respond nationally under the Federal 
workman's comp system. However, if you are a local agency and 
you have State workman's comp that is at a higher level than 
the Federal, then that employee is going to be covered under 
that State, because we can't give them less than what they are 
already negotiated to have.
    So there were some issues with Riverside, where it was 
Federal level that they were willing to cover, and then we had 
to go back and debate and argue to a higher level.
    Ms. Norton. The worker's compensation I think is taken care 
of in the bill.
    Mr. Kramer. Yes, it is. In fact, I think the tort liability 
is also covered.
    Ms. Norton. And the tort liability.
    Mr. Kramer. Yes.
    Ms. Norton. When you leave your equipment in Haiti or 
elsewhere, the Federal Government replaces that equipment?
    Mr. Downey. Yes. On this particular deployment, we were 
asked to leave, as a donation on behalf of AID, some of our 
equipment, and that all has already been catalogued and 
reimbursement being sought to replace all that equipment. It 
does create an operational shortfall, though, because some of 
our operationally necessary equipment we don't have anymore. So 
we are trying to----
    Ms. Norton. I hope there are not delays in taking care of 
that, because we don't want to short-change at home in order to 
make sure we take care of people abroad.
    Mr. Downey. Right. No, we, at least from my task force's 
perspective, what we left was already in the pipeline to be 
replaced and ours was strictly the tents, the cots, the 
sleeping bags, the generators, the lights. All of our vital 
rescue equipment, communications equipment, search equipment we 
didn't leave.
    Ms. Norton. Did you have something you wanted to add to 
that?
    Mr. Endrikat. Yes, Madam Chairwoman. I just wanted to 
clarify. I think Mr. Carwile mentioned that only the two USAID 
task forces left equipment, and just to clarify that, all six 
of the American task forces left equipment. Virginia 1 left 
their rescue equipment, and that is what they will be training 
the Haitian government on.
    But all of the other task forces, like Dave said, left 
primarily the logistical support equipment, the medical, the 
pharmaceuticals, and some other support things that were very 
important for the humanitarian side of the mission.
    Ms. Norton. We are very pleased to hear that, and I think 
the people of the United States would have wanted it that way.
    Mr. Diaz-Balart wants to add something.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. One thing 
that I neglected to mention.
    One of the other issues, because you all have given us a 
lot to chew on here, was the issue of water rescue and 
obviously part of it is the training, we understand that, but 
then the equipment is the other part of it.
    One of the things, Madam Chairman, we are going to have to 
also try to figure out is how do you deal with that aspect of 
it. It even gets more complicated when you are dealing with 
now, because I guess there is water rescue assets and then 
there are water rescue assets, and, depending on the 
circumstances, they can be larger or smaller. So that is a 
little bit, that is kind of a difficult task to try to figure 
out who has those assets that you all can tap into.
    Mr. Kramer. We actually did a study from the Urban Search 
and Rescue Program about probably four or five years ago, right 
after Katrina, what the cost of those water assets we need, and 
they were the Zodiac boats and such. As you mentioned, there 
are different levels of water rescue.
    Locally, at home, for the level that my team is at, we 
require a helicopter. Obviously, the task forces can't have 
that, but just the capability to have boats to get into areas 
and rescue people. A lot of the rescues that my swift water 
teams did in Katrina during the early portion of it were simply 
removing people off of bridges, removing people off of houses, 
out of homes and places where they were trapped; not 
necessarily that they couldn't have gotten out on their own, 
but we don't know that.
    Mr. Diaz-Balart. Right. And that is going to be--because, 
for example, again, in Katrina you are saying obviously 
helicopters, and we saw the Coast Guard had a big role to play 
in helicopters. That was a specific Katrina kind of phenomena. 
So when you are talking about that, you are dealing mostly with 
inflatable Zodiacs?
    Mr. Kramer. That is correct.
    Mr. Diaz-Balart. Is that what you are basically talking 
about?
    Mr. Kramer. That is correct.
    Mr. Diaz-Balart. Okay, so it is less complicated in that 
sense than I thought.
    Mr. Kramer. Fred, correct me if I am wrong, I think the 
cost for us to get to be to water rescue is like about $35,000 
a task force.
    Mr. Diaz-Balart. Okay.
    Mr. Kramer. Reasonably low because the task forces right 
now, although they are not, if you will, water rescue----
    Mr. Diaz-Balart. But they are already there.
    Mr. Kramer. Yes. They do have the ability for self-
protection, so we have PFDs, floatable devices, the helmets. We 
have things for our task force already that you would need for 
the swift water.
    Mr. Diaz-Balart. And, again, thanking the Chairwoman again 
for indulgence. I just do want to end on one note, and I know 
it has nothing to do with this issue, but I know that there are 
those who like to bash America. They have always existed and 
they continue to exist, and they will be there in the future. 
And I know that some of even our allies were bashing the United 
States for too much of a presence in Haiti, and so be it. You 
know, I, for one, am not apologetic about the fact that once 
again the American people, through our heroes and our first 
responders and our armed forces, were there to provide 
incredible humanitarian relief. And if our wonderful friends 
and allies like the French and the Italians don't like it, 
tough luck. Thank you.
    Ms. Norton. I love those words, Mr. Diaz-Balart, and I join 
you in those words.
    Gentlemen, your service makes us proud to be part of a 
Federal union that also is joined to its component parts, and 
that those component parts adhere and come together, whether at 
home or abroad, in time of distress. You have made the whole 
notion of the Federal union, which has worked so well in our 
Country for more than two centuries, shine, because when we are 
most needed somehow the other--for all the differences among 
the States, the Federal Government and the States and 
localities come together and do really heroic work.
    And we know heroes is an overused word. You know, people 
use hero when a kid comes home with passing grades these days. 
We try, since we deal with very serious issues in this 
Subcommittee, to use it not in some generic sense, but to apply 
it appropriately. We think that it is not overuse of the term 
or inappropriate use to say that the work you perform every day 
is regarded by the American people as heroic, because we see 
you at home and people, when they saw you in Haiti literally 
identified with you because they know you and they know what 
you can do in this Country.
    So, Mr. Endrikat of Philadelphia, Pennsylvania, Mr. Downey 
of Miami-Dade, Florida, Mr. Cover of Virginia Beach, Virginia, 
and Mr. Kramer of Orange County, California, on behalf of our 
Subcommittee and our Committee--and I do not think it 
presumptuous to say on behalf of the American people--let me 
thank you for your testimony today, for what you do every day, 
for what you do under extraordinary circumstances even not in 
this Country.
    And let me assure you that your testimony has been 
instructive and you will see parts of it that are not already 
in the bill echoed from today's hearing. Thank you again for 
taking the time to come on fairly short notice to testify 
before us today. We have learned much from you.
    This hearing is adjourned.
    [Whereupon, at 5:59 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4757.009
    
    [GRAPHIC] [TIFF OMITTED] T4757.010
    
    [GRAPHIC] [TIFF OMITTED] T4757.011
    
    [GRAPHIC] [TIFF OMITTED] T4757.012
    
    [GRAPHIC] [TIFF OMITTED] T4757.013
    
    [GRAPHIC] [TIFF OMITTED] T4757.014
    
    [GRAPHIC] [TIFF OMITTED] T4757.015
    
    [GRAPHIC] [TIFF OMITTED] T4757.016
    
    [GRAPHIC] [TIFF OMITTED] T4757.017
    
    [GRAPHIC] [TIFF OMITTED] T4757.018
    
    [GRAPHIC] [TIFF OMITTED] T4757.019
    
    [GRAPHIC] [TIFF OMITTED] T4757.020
    
    [GRAPHIC] [TIFF OMITTED] T4757.021
    
    [GRAPHIC] [TIFF OMITTED] T4757.022
    
    [GRAPHIC] [TIFF OMITTED] T4757.023
    
    [GRAPHIC] [TIFF OMITTED] T4757.024
    
    [GRAPHIC] [TIFF OMITTED] T4757.025
    
    [GRAPHIC] [TIFF OMITTED] T4757.026
    
    [GRAPHIC] [TIFF OMITTED] T4757.027
    
    [GRAPHIC] [TIFF OMITTED] T4757.028
    
    [GRAPHIC] [TIFF OMITTED] T4757.029
    
    [GRAPHIC] [TIFF OMITTED] T4757.030
    
    [GRAPHIC] [TIFF OMITTED] T4757.031
    
    [GRAPHIC] [TIFF OMITTED] T4757.032
    
    [GRAPHIC] [TIFF OMITTED] T4757.033
    
    [GRAPHIC] [TIFF OMITTED] T4757.034
    
    [GRAPHIC] [TIFF OMITTED] T4757.035
    
    [GRAPHIC] [TIFF OMITTED] T4757.036
    
    [GRAPHIC] [TIFF OMITTED] T4757.037
    
    [GRAPHIC] [TIFF OMITTED] T4757.038
    
    [GRAPHIC] [TIFF OMITTED] T4757.039
    
    [GRAPHIC] [TIFF OMITTED] T4757.040
    
    [GRAPHIC] [TIFF OMITTED] T4757.041
    
    [GRAPHIC] [TIFF OMITTED] T4757.042
    
    [GRAPHIC] [TIFF OMITTED] T4757.043
    
    [GRAPHIC] [TIFF OMITTED] T4757.044
    
    [GRAPHIC] [TIFF OMITTED] T4757.045
    
    [GRAPHIC] [TIFF OMITTED] T4757.046
    
    [GRAPHIC] [TIFF OMITTED] T4757.047
    
    [GRAPHIC] [TIFF OMITTED] T4757.048
    
    [GRAPHIC] [TIFF OMITTED] T4757.049
    
    [GRAPHIC] [TIFF OMITTED] T4757.050
    
    [GRAPHIC] [TIFF OMITTED] T4757.051
    
    [GRAPHIC] [TIFF OMITTED] T4757.052
    
    [GRAPHIC] [TIFF OMITTED] T4757.053
    
    [GRAPHIC] [TIFF OMITTED] T4757.054
    
    [GRAPHIC] [TIFF OMITTED] T4757.055
    
    [GRAPHIC] [TIFF OMITTED] T4757.056
    
    [GRAPHIC] [TIFF OMITTED] T4757.057
    
    [GRAPHIC] [TIFF OMITTED] T4757.058
    
    [GRAPHIC] [TIFF OMITTED] T4757.059
    
    [GRAPHIC] [TIFF OMITTED] T4757.060
    
    [GRAPHIC] [TIFF OMITTED] T4757.061
    
    [GRAPHIC] [TIFF OMITTED] T4757.062
    
    [GRAPHIC] [TIFF OMITTED] T4757.063
    
    [GRAPHIC] [TIFF OMITTED] T4757.064
    
    [GRAPHIC] [TIFF OMITTED] T4757.065
    
    [GRAPHIC] [TIFF OMITTED] T4757.066
    
    [GRAPHIC] [TIFF OMITTED] T4757.067
    
    [GRAPHIC] [TIFF OMITTED] T4757.068
    
    [GRAPHIC] [TIFF OMITTED] T4757.069
    
    [GRAPHIC] [TIFF OMITTED] T4757.070
    
    [GRAPHIC] [TIFF OMITTED] T4757.071
    
    [GRAPHIC] [TIFF OMITTED] T4757.072
    
    [GRAPHIC] [TIFF OMITTED] T4757.073
    
    [GRAPHIC] [TIFF OMITTED] T4757.074
    
    [GRAPHIC] [TIFF OMITTED] T4757.075
    
    [GRAPHIC] [TIFF OMITTED] T4757.076
    
    [GRAPHIC] [TIFF OMITTED] T4757.077
    
    [GRAPHIC] [TIFF OMITTED] T4757.078
    
    [GRAPHIC] [TIFF OMITTED] T4757.079
    
    [GRAPHIC] [TIFF OMITTED] T4757.080
    
    [GRAPHIC] [TIFF OMITTED] T4757.081
    
    [GRAPHIC] [TIFF OMITTED] T4757.082
    
    [GRAPHIC] [TIFF OMITTED] T4757.083
    
    [GRAPHIC] [TIFF OMITTED] T4757.084
    
    [GRAPHIC] [TIFF OMITTED] T4757.085
    
    [GRAPHIC] [TIFF OMITTED] T4757.086
    
    [GRAPHIC] [TIFF OMITTED] T4757.087
    
    [GRAPHIC] [TIFF OMITTED] T4757.088
    
    [GRAPHIC] [TIFF OMITTED] T4757.089
    
    [GRAPHIC] [TIFF OMITTED] T4757.090
    
    [GRAPHIC] [TIFF OMITTED] T4757.091
    
    [GRAPHIC] [TIFF OMITTED] T4757.092
    
                                    

</pre></body></html>
